<html>
<title> - REFORMING THE UNITED NATIONS: LESSONS LEARNED</title>
<body><pre>[House Hearing, 112 Congress]
[From the U.S. Government Publishing Office]


 
                     REFORMING THE UNITED NATIONS:
                            LESSONS LEARNED

=======================================================================

                                HEARING

                               BEFORE THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 3, 2011

                               __________

                            Serial No. 112-4

                               __________

        Printed for the use of the Committee on Foreign Affairs


 Available via the World Wide Web: http://www.foreignaffairs.house.gov/

                                 ______



                  U.S. GOVERNMENT PRINTING OFFICE
64-870                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="f493849bb4978187809c919884da979b99da">[email&#160;protected]</a>  

                      COMMITTEE ON FOREIGN AFFAIRS

                 ILEANA ROS-LEHTINEN, Florida, Chairman
CHRISTOPHER H. SMITH, New Jersey     HOWARD L. BERMAN, California
DAN BURTON, Indiana                  GARY L. ACKERMAN, New York
ELTON GALLEGLY, California           ENI F.H. FALEOMAVAEGA, American 
DANA ROHRABACHER, California             Samoa
DONALD A. MANZULLO, Illinois         DONALD M. PAYNE, New Jersey
EDWARD R. ROYCE, California          BRAD SHERMAN, California
STEVE CHABOT, Ohio                   ELIOT L. ENGEL, New York
RON PAUL, Texas                      GREGORY W. MEEKS, New York
MIKE PENCE, Indiana                  RUSS CARNAHAN, Missouri
JOE WILSON, South Carolina           ALBIO SIRES, New Jersey
CONNIE MACK, Florida                 GERALD E. CONNOLLY, Virginia
JEFF FORTENBERRY, Nebraska           THEODORE E. DEUTCH, Florida
MICHAEL T. McCAUL, Texas             DENNIS CARDOZA, California
TED POE, Texas                       BEN CHANDLER, Kentucky
GUS M. BILIRAKIS, Florida            BRIAN HIGGINS, New York
JEAN SCHMIDT, Ohio                   ALLYSON SCHWARTZ, Pennsylvania
BILL JOHNSON, Ohio                   CHRISTOPHER S. MURPHY, Connecticut
DAVID RIVERA, Florida                FREDERICA WILSON, Florida
MIKE KELLY, Pennsylvania             KAREN BASS, California
TIM GRIFFIN, Arkansas                WILLIAM KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID CICILLINE, Rhode Island
JEFF DUNCAN, South Carolina
ANN MARIE BUERKLE, New York
RENEE ELLMERS, North Carolina
VACANT
                   Yleem D.S. Poblete, Staff Director
             Richard J. Kessler, Democratic Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

The Honorable Mark D. Wallace, president and chief executive 
  officer, United Against Nuclear Iran (former United States 
  Representative to the United Nations for Management and Reform)    11
The Honorable Terry Miller, director of the Center for 
  International Trade and Economics, The Heritage Foundation 
  (former United States Representative to the United Nations 
  Economic and Social Council, United States observer at the 
  United Nations Educational, Scientific, and Cultural 
  Organization, and deputy assistant secretary of state for 
  economic and global issues)....................................    22
Mr. Ted Piccone, Brookings Institution, senior fellow and deputy 
  director for foreign policy....................................    32

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

The Honorable Ileana Ros-Lehtinen, a Representative in Congress 
  from the State of Florida, and chairman, Committee on Foreign 
  Affairs: Prepared statement....................................     4
The Honorable Mark D. Wallace: Prepared statement................    13
The Honorable Terry Miller: Prepared statement...................    24
Mr. Ted Piccone: Prepared statement..............................    34

                                APPENDIX

Hearing notice...................................................    72
Hearing minutes..................................................    73
The Honorable Howard L. Berman, a Representative in Congress from 
  the State of California: Material submitted for the record.....    75
Questions submitted for the record by the Honorable Ileana Ros-
  Lehtinen and responses from:
  The Honorable Terry Miller.....................................    76
  The Honorable Mark D. Wallace..................................    80


             REFORMING THE UNITED NATIONS: LESSONS LEARNED

                              ----------                              


                        THURSDAY, MARCH 3, 2011

                  House of Representatives,
                              Committee on Foreign Affairs,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10 o'clock a.m., 
in room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the committee) presiding.
    Chairman Ros-Lehtinen. The committee will come to order. 
After recognizing myself and the ranking member, my good friend 
Mr. Berman, for 7 minutes each for our opening statements, we 
will then proceed to hear from our witnesses.
    The Chair would ask our witnesses to keep their oral 
summaries of their written testimony to no more than 5 minutes 
each. I am getting quite a reputation for being ruthless with 
this gavel, Mr. Chairman. I will have to be kinder.
    Following their testimonies, members will be recognized to 
question witnesses under the 5-minute rule. Without objection, 
the witnesses' prepared statements will be made part of the 
record. And members may have 5 days to insert statements and 
questions for the record subject to the length limitation of 
the rules. The chair now recognizes herself for 7 minutes.
    Today, we consider lessons learned from past U.N. reform 
attempts, to ensure that present and future efforts are based 
on what works. What a concept.
    Lesson One: Money talks. The biggest problem with the U.N. 
is that those who call the shots don't have to pay the bills. 
Most U.N. member nations pay next to nothing in assessed 
contributions, but work together to adopt U.N. programming 
decisions and budgets, passing the costs on to big 
contributors, like the U.S. The U.S. goes along and pays all 
contributions that the U.N. assesses to us: 22 percent of the 
U.N. regular budget, plus billions more every year.
    The current administration has unconditionally repaid our 
U.N. arrears. When the U.N. bureaucracy and other member 
countries know that we will pay in full, no matter what, they 
have zero incentive to reform.
    Almost every productive U.S. reform effort has been based 
on withholding our contributions unless and until needed 
reforms are implemented. In the 1980s, for example, Congress 
adopted an amendment to withhold funding until the U.N. changed 
how budgets are voted on. That effort showed some success until 
the amendment expired. The threat was no longer credible and 
the U.N. returned to business as usual.
    In 1989, Arafat pushed for the PLO to gain full membership 
in the U.N. agencies, meaning the PLO would be essentially 
recognized as a state without making peace with Israel. The PLO 
strategy looked unstoppable until the George H.W. Bush 
administration made clear the U.S. would cut off funding to any 
U.N. entity that upgraded the status of the PLO.
    The PLO's effort was stopped in its tracks. While Arafat is 
gone, his successors are up to the same tricks today. The U.S. 
response must be just as strong.
    In the '90s, when the U.N. regular and peacekeeping budgets 
were skyrocketing, Congress enacted the Helms-Biden agreement. 
The U.S. withheld our dues and conditioned repayment on key 
reforms. When the U.N. saw that we meant business, they agreed 
to change, and that saved U.S. taxpayer funds. Smart 
withholding worked.
    Withholding alone is insufficient to produce lasting 
reform. That is why we must demand that funding for the U.N. 
budget and U.N. entities move from an assessed to a voluntary 
basis. That way, Americans, not U.N. bureaucrats or other 
member countries, will determine how much taxpayer dollars are 
spent on the U.N., and where they go.
    We should pay for U.N. programs and activities that advance 
our interests and our values. If other countries want different 
things to be funded, they can pay for it. The voluntary model 
works for UNICEF and other U.N. entities. It can work for the 
U.N. as a whole.
    Lesson Two: Principled, credible, consistent U.S. 
leadership matters. The U.S. is not just another member nation 
at the U.N. American leadership is what our allies expect from 
us, and what our enemies fear. We should not be afraid to block 
consensus and stand up for our values and interests, even if 
that means standing alone, though we should lobby other 
responsible nations to join us.
    Last week, the working group reviewing the U.N. Human 
Rights Council came out with an outcome document that made no 
structural reforms needed to turn the Council from a rogues' 
gallery to a useful entity. Even as the U.S. criticized the 
review process, calling it a ``race to the bottom,'' we did not 
demand a vote, allowing it to be adopted by consensus. Such 
indecisiveness undermines our credibility with our allies, and 
weakens our ability to advance our goals at the U.N.
    Lesson Three: Require real reforms, and don't settle for 
cosmetic changes. In 2006, the U.N. finally abolished the 
shameful U.N. Commission on Human Rights, which had fallen so 
far that it had been chaired by Qadhafi's Libyan regime. 
Instead of replacing the Commission with a body based on real 
membership standards, the U.N. created a Human Rights Council 
that is as bad, if not worse, than its predecessor. Even the 
New York Times rejected the U.S. joining the Council, calling 
it ``an ugly sham, offering cover to an unacceptable status 
quo.''
    The majority of the Council's members, including China, 
Cuba, Russia, and Saudi Arabia, are not free nations. The 
Council even has a permanent agenda item criticizing Israel. 
The Council is expected to adopt several more anti-Israel 
resolutions at the current March session.
    When the Council does periodically adopt resolutions 
criticizing real human rights abuses, they are usually too 
little and too late. Why did it take the massacre of hundreds 
of people in the streets for the U.N. to throw Libya off the 
Council? Why was Qadhafi's regime permitted to join the Council 
to begin with?
    Now that the 5-year review of the Council has indicated no 
real reforms will be forthcoming, the U.S. should finally leave 
the Council and explore alternative forums to advance human 
rights.
    Lesson Four: Don't compare apples and oranges. Some of the 
U.N.'s defenders like to cite some good U.N. activities to gain 
support for funding bad ones. However, we are not here to play 
``Let's Make a Deal.'' Each U.N. office, activity, program, and 
sub-program must be justified on its own merits and funded 
voluntarily. UNICEF aid to starving children cannot excuse 
UNRWA having members of Hamas on its payroll.
    To incorporate lessons learned, I will soon introduce a 
revised version of the United Nations Transparency, 
Accountability, and Reform Act, which I first introduced in 
2007. Its fundamental principle will be ``Reform first. Pay 
later.'' I hope that my colleagues will join me in lending 
strong, bipartisan support to this bill.
    And I am now pleased to recognize our distinguished ranking 
member, Mr. Berman, for his opening remarks.
    [The prepared statement of Chairman Ros-Lehtinen follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

    Mr. Berman. Well, thank you much, Madam Chairman. I 
appreciate you calling this hearing and our witnesses for 
agreeing to appear before the committee. We may have a slightly 
different perspective on this issue.
    As I noted at our previous hearing on this subject, the 
flaws, shortcomings, and outrages of the United Nations, both 
past and present, are numerous and sometimes flagrant. The 
Human Rights Council's obsession with and biased treatment of 
Israel, the failure to adequately resource the Office of 
Internal Oversight Services, contracting scandals, and lax 
management standards, which have allowed taxpayer dollars to be 
squandered, that should anger members of this committee, 
Republican and Democratic alike. But these problems, while 
serious, don't even begin to tell the whole story.
    Any honest assessment of the United Nations would have to 
conclude that the organization, very far from perfect, plays an 
important and often essential role in supporting U.S. foreign 
policy and national security interests.
    From UNDP's work organizing the recent referendum in Sudan 
to the U.N. High Commissioner for Refugee's efforts to protect 
and resettle refugees fleeing from the violence in Libya, to 
the Security Council resolution imposing tougher sanctions on 
Iran, the U.N. serves as a force multiplier for U.S. interests.
    So what should we do to address the U.N.'s shortcomings? 
Some continue to propose withholding dues as a way to leverage 
change at the U.N. But the fact is previous attempts to 
withhold dues simply haven't produced necessary reforms and 
certainly not on the scale of those achieved over the past 6 
years through constructive engagement, like the creation of the 
U.N. Ethics Office or the Independent Audit Advisory Committee. 
Instead, withholdings severely weakened our diplomatic standing 
and made it much more difficult to achieve positive change.
    For just that reason, the George W. Bush administration 
strongly opposed a bill authored by our late colleague Henry 
Hyde that would have resulted in new withholdings. In a 
Statement of Administration Policy dated June 16th, 2005, they 
said the legislation would ``detract from and undermine'' their 
efforts to pursue U.N. reform. Apparently, even the threat of 
withholding isn't enough for many in this body.
    Two weeks ago, when the House debated the Republican 
continuing resolution, 177 Members voted for an amendment to 
prohibit the use of any funds to pay our assessed dues. In 
effect, that was a vote to withdraw from the U.N. I wasn't 
aware that the slogan ``Get the U.S. out of the U.N.'' was 
still such a popular one in this country.
    Others have argued that all of our contributions to the 
U.N. should be voluntary. I note with some irony that the 
advocates of this approach are often the same ones who then 
support slashing our voluntary contributions to U.N. agencies. 
So is this just a guise, another guise, for withdrawal?
    Unilaterally moving to a system of all voluntary 
contributions would violate our international treaty 
obligations. I am pleased we have two former senior-level Bush 
administration officials appearing before the committee today. 
In their prepared testimony, both of them are highly critical 
of the rapid growth in U.N. budgets, which began at just about 
the time President Bush took office.
    Let me offer two possible explanations for this growth. 
First, the U.N. budget, like our Federal budget, grew rapidly 
in the years after 9/11, as the U.N. was asked by the Bush 
administration to assume more responsibilities in Iraq, 
Afghanistan, and other countries.
    And, second, during the previous administration, we also 
saw the largest proliferation of peacekeeping missions in the 
U.N.'s history, all of them approved by the United States in 
the previous administration and the other permanent members of 
the Security Council.
    These are some important issues worth examining, in 
contrast to the old allegations about UNDP operations in North 
Korea. Those allegations were examined in excruciating detail 
by the Senate Permanent Subcommittee on Investigations, as well 
as a U.S.-backed independent panel. While both investigations 
concluded that UNDP should improve management and 
accountability, neither found evidence to support spectacular 
allegations that the organization funneled vast sums of money 
to the regime in Pyongyang.
    By recycling discredited old rumors, we diminish our own 
credibility and miss a valuable opportunity to work in a 
constructive way to repair what we all agree is a flawed 
system. Madam Chairman, since we are here to discuss the 
subject of U.N. reform, I thought it would be appropriate to 
reflect for a moment on the U.N.'s response to the political 
upheaval in the Middle East.
    Two days ago, we heard from Secretary Clinton about the 
response of the U.S. and the international community to the 
crisis in Libya. In fact, she had just arrived back in 
Washington from Geneva, where she addressed the Human Rights 
Council at the opening of its March session.
    As we all know, the anti-Israel vitriol that all too often 
emanates from the Council and the membership of serious human 
rights offenders on the Council has been a deep stain on the 
U.N.'s reputation. That said, the Council's unprecedented 
special session last Friday on Libya, along with the General 
Assembly's unanimous decision to remove Libya from the Council, 
demonstrates that the administration's strategy of engagement 
in Geneva has borne fruit.
    I am also very encouraged by Secretary Clinton's 
determination to put Iran's reprehensible human rights record 
on the Council agenda for this month. It is worth noting that 
even Hillel Neur of the U.N. Watch, one of the strongest and 
most informed critics of the Human Rights Council and a witness 
called by the Majority at our previous hearing, does not 
support withdrawing from or withholding dues to the Council.
    I look forward to hearing from our witnesses on ways we can 
constructively promote reform at the United Nations, 
recognizing the importance of the institution to U.S. foreign 
policy and national security.
    Thank you, Madam Chairman. And I yield back the balance of 
my time.
    Chairman Ros-Lehtinen. Thank you so much, Mr. Berman.
    I now would like to give an opportunity to the members to 
make a 1-minute opening statement. We will begin with Mr. 
Chabot, the chairman of the Middle East Subcommittee.
    Mr. Chabot. Thank you, Madam Chair.
    And some of the things that I have heard this morning I 
agree with, both from the ranking member and the chairman of 
the committee, particularly with respect to the U.N. Human 
Rights Council.
    What a morally bankrupt organization it has become when you 
have some of the world's worst actors that are on there, Libya 
being one example and many others. And I think that is what is 
most outrageous to so many members of this committee. And I 
would hope that we can look into that at some length and with 
some particularity because I think it is just an outrage. The 
types of organizations, countries, individuals that are being 
represented there. And the U.S. is to some degree by being on 
there giving some sort of moral support to what has happened 
there. And I think we shouldn't be in that position.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Chabot.
    Mr. Cicilline? Thank you for coming to the event last 
night.
    Mr. Cicilline. Thank you. Congratulations.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Cicilline. Good morning. Thank you very much for being 
here. And I am anxious to get to the questions, but I just want 
to say that I know of no example of an organization or an 
institution that has been successfully reformed or improved by 
disengaging in the work of performing or improving it.
    And while I think I certainly am new to this issue, we 
heard lots of testimony last time we discussed the United 
Nations about some reforms which must take place. And I think 
we all have a right to expect that and to demand it, but, in 
addition to that, to work aggressively to make it happen.
    It strikes me that the best way to do that is to remain 
actively engaged in the United Nations as a full participant. 
And my concern is that anything that would suggest that we 
should disengage by not supporting it with adequate funding 
would make our voices much less strong at the table and would 
undermine, really, our credibility and our ability to actively 
press for just the reforms we all want.
    So I look forward to hearing your testimony and having the 
opportunity to ask some questions on this. Thank you, Madam 
Chair Schmidt of Ohio? Thank you.
    Congressman Carnahan?
    Mr. Carnahan. Thank you, Madam Chair, for having this 
hearing. I think it is very timely and especially because it 
comes at a time, a little more than 2 years into the Obama 
administration's reform efforts.
    Efforts have been underway in various forms for many years 
and actually through many administrations. Some have been 
successful, and some have not. I would note that we still have 
progress that needs to be made through the U.N. system.
    I urge the administration to continue these efforts. I have 
long believed that the best way to achieve meaningful reform is 
to meet our financial obligations, demand accountability, and 
pursue a policy of constructive engagement.
    We have a better chance of achieving lasting, sustainable 
progress by being at the table, in the tent, and not on the 
outside. And I think we have years of experience to prove that.
    Just one example of a recent success with the creation of 
U.N. Women. They combined many different agencies into one that 
I think could be a powerful development tool.
    So I am pleased that we are here today to talk about this 
and how we can pursue that policy of constructive engagement at 
the U.N. Thank you.
    Chairman Ros-Lehtinen. Thank you.
    Congressman Smith of New Jersey?
    Mr. Smith. Thank you very much, Madam Chair.
    I want to welcome our distinguished witnesses and thank 
them for their service. You know, the U.N. has such great 
potential. And so often it squanders it, both by what it allows 
its treaty bodies to do and by what the Human Rights Council, 
in particular, has done.
    I remember year in and year out going and visiting Geneva 
during the Human Rights Commission gatherings. And they were 
usually hate fests toward Israel. Unfortunately, the Human 
Rights Council, with all the fanfare about how it was supposed 
to be the agent of reform, has fallen far short of any of those 
expectations. And many of us who said it then have been proven 
right. And I, frankly, wish we had been proven demonstrably 
wrong.
    Rogue states sit on that Council. Periodic reviews become 
exercises in futility. So much more has to be done. The Human 
Rights Council ought to be the premier body for human rights 
enforcement, compliance--bringing the spotlight in scrutiny--
and it has not. And that is with great sadness I say that.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Ackerman in New York?
    Mr. Ackerman. I disagree very strongly very often with some 
of the things the U.N. says and does and often doesn't do. But 
I remain even more concerned that we not withdraw into a 
cocoon, bury our heads in the sand and become an isolationist 
nation of know nothings. I think in the interests of our own 
concerns in the world, we should recall that if we are not at 
the table, we are on the menu.
    Thank you.
    Chairman Ros-Lehtinen. Thank you, Mr. Ackerman.
    Mr. Fortenberry of Nebraska?
    Mr. Fortenberry. Thank you, Madam Chair, for holding this 
hearing.
    Just briefly let me say I think it is important for the 
United States to actively and eagerly participate in 
multilateral institutions, in spite of the effrontery we often 
have to endure in many of them.
    The U.N. serves some essential roles in providing 
international stability, particularly in terms of humanitarian 
outreach and peacekeeping forces. Other aspects of it just 
create a hotbed for political rhetoric that is not constructive 
at all. So I think as we move forward, we can also keep in mind 
there are other multilateral institutions that can serve to 
provide a platform for international dialogue and problem-
solving that could potentially replace certain aspects of the 
U.N.'s role currently.
    Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you, Mr. Fortenberry.
    Ms. Buerkle and Judge Poe, do you have any statement that 
you would like to make?
    Ms. Buerkle. Madam Chair, I will yield my time. Thank you.
    Chairman Ros-Lehtinen. Thank you.
    So we will continue to now welcome today's witnesses: The 
Honorable Mark D. Wallace, president and chief executive 
officer of United Against Nuclear Iran. Ambassador Wallace has 
served in a number of senior positions in the executive branch, 
including most recently as U.S. Representative to the United 
Nations for Management and Reform from the years 2006 to 2008. 
He has also served as principal legal adviser to the Bureau of 
Immigration and Customs Enforcement and the Bureau of 
Immigration and Citizenship Services and as general counsel of 
the INS and the Federal Emergency Management Agency.
    I might add, most importantly, that Ambassador Wallace is a 
fellow alum of the University of Miami. Go 'Canes.
    The Honorable Terry Miller--welcome, Ambassador--is the 
director of the Center for International Trade and Economics at 
the Heritage Foundation and is the editor of the foundation's 
Annual Index of Economic Freedom.
    Ambassador Miller is a veteran of the U.S. Foreign Service 
and has served in a number of senior positions in the executive 
branch. From 2006 to '07, Ambassador Miller served as the U.S. 
Representative to the U.N. Economic and Social Council. He 
served as the deputy assistant secretary of state for the 
Bureau of International Organization Affairs from the years 
2003 to 2006, after serving as the director of a number of 
other bureau offices for several years.
    Ambassador Miller has also headed the U.S. observer mission 
at UNESCO from '86 to '90 and served on delegations to U.N. 
meetings that are permanent mission to the U.N. in New York 
from '79 to '86. We welcome you.
    And Mr. Ted Piccone is a senior fellow and deputy director 
for foreign policy at the Brookings Institution. From 2001 to 
2008, Mr. Piccone served as executive director and co-founder 
of the Democracy Coalition Project.
    He is a veteran of Capitol Hill and the executive branch. 
From '98 to 2001, he was associate director of the State 
Department's Policy Planning staff. From '96 to '98, he was 
director for Inter-American Affairs at the National Security 
Council. He also served as a policy adviser in the Office of 
the Secretary of Defense from '93 to '96.
    The Chair thanks all of our witnesses and would remind them 
to keep their oral testimony to no more than 5 minutes each. 
Without objection, the witnesses' written testimony will be 
inserted into the record at this time.
    So we will begin with Ambassador Wallace.
    Thank you, sir.

STATEMENT OF THE HONORABLE MARK D. WALLACE, PRESIDENT AND CHIEF 
 EXECUTIVE OFFICER, UNITED AGAINST NUCLEAR IRAN (FORMER UNITED 
STATES REPRESENTATIVE TO THE UNITED NATIONS FOR MANAGEMENT AND 
                            REFORM)

    Ambassador Wallace. Thank you, Madam Chairman and 
distinguished members of the committee. Thank you for the 
opportunity to appear before you today to discuss the United 
Nations reform. Thank you for your continued interest and 
dedication in the area.
    I would like to introduce two people, Mark Groombridge and 
David Ibsen, who are behind me, who did great work in this area 
at the U.S. mission to the U.N., also Clarke Cooper. I am sure 
there are other refugees from the U.S. mission, but there are 
many fine people who worked on this, in this portfolio and have 
done great work. I want to acknowledge them for their help.
    Fortunately, I can continue to work with two of them in our 
effort at United Against Nuclear Iran. A more efficient and 
effective U.N. can better serve both the interests of the 
United States and the international community. The United 
Nations continues to do important work in a number of areas, 
but it is an institution which after six decades critically 
needs reform and remains deeply flawed.
    My remarks today are intended to provoke discussion on how 
to make the United Nations a more efficient and effective 
institution. Too often people who suggest ways to reform the 
U.N. are viewed as having an agenda to undermine the United 
Nations.
    My remarks should be reviewed firmly in the context of 
someone who is trying to make the U.N. a more effective and 
transparent institution that is accountable to member states. 
With that in mind, I hope to share some of my experiences and 
lessons learned during my time at the U.S. mission.
    To help set the stage for our talk today, I will briefly 
highlight a few important experiences and areas: First, mandate 
review. Mandates are a U.N. euphemism for almost all budget-
based things that the U.N. does. The reform related to mandate 
review was simply to conduct a thorough review of existing 
mandates and evaluate the degree to which they aligned with 
modern priorities.
    In 60 years, the U.N. added thousands of such mandates but 
never materially evaluated or eliminated any. The U.N., like 
all bureaucracies, has a strong tendency to expand to over 
9,000 mandates, the vast majority of which had budgetary 
implications and that were often outdated and duplicative.
    By attempting to do everything, the United Nations was 
eroding its ability to accomplish anything. Unfortunately, 
mandate review failed. And only some 400 out of the 9,000 
mandates were even discussed. And none of them had been 
repealed, combined, or modified.
    This redundancy and bureaucratic disarray is fueled in 
opaque culture at the United Nations that can lead to 
disastrous consequences. A lack of transparency and 
accountability manifests itself in ways that are at times far 
more subversive than duplicative reports and blooming budgets. 
For example, we discovered the United Nations developed a 
program for a Cash for Kim scandal. We, along with the Senate 
Permanent Subcommittee on Investigations, had come to learn 
that North Korea had perverted the UNDP for its own benefit.
    The U.N. Transparency and Accountability Initiative was a 
key effort that we designed to combat that opaque culture by 
promoting eight specific management reforms within the U.N.'s 
funds, programs, and specialized agencies. These arms of the 
U.N. lacked even the most basic management reform mechanisms.
    In creating UNTAI, we were hardly placing an unreasonable 
burden on the U.N. We were merely calling on the U.N. to adopt 
a basic set of management and oversight tools that would be 
found in any responsible public or private sector organization 
in the twenty-first century.
    Finally, the United States should strongly consider 
voluntarily funding the U.N. funds, programs, and specialized 
agencies to promote competitive efficiencies, a better U.N. I 
believe the transparency is the foundation of accountability. 
To not have transparency or accountability in the U.N. is 
simply an invitation for another ``Oil-for-Food'' or ``Cash for 
Kim'' scandal. These scandals not only compromised the 
reputation and viability of the U.N., but they also compromised 
our national security interest. Our taxpayer money must go to 
its intended purposes. That is our responsibility to taxpayer.
    In closing, I would again like to thank you, Madam Chairman 
and the members of the committee, for hosting this hearing and 
allowing me to testify today. The stakes of today's discussion 
in my opinion go well beyond the $6.3 billion given by the 
United States to the United Nations in Fiscal Year 2009.
    Thank you for your time. I will be happy to answer any 
questions that you all have. I look forward to the comments and 
insights of my colleagues on this panel.
    I will keep talking a minute or 2 longer. [Laughter.]
    Chairman Ros-Lehtinen. I apologize. I had some 
constituents----
    Ambassador Wallace. Sorry, Madam Chairman.
    Chairman Ros-Lehtinen [continuing]. Who flew in for the 
meeting, but I had one ear on what you were saying. Plus, I 
read your written testimony. Thank you so much.
    Ambassador Wallace. Thank you.
    [The prepared statement of Ambassador Wallace follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Ambassador Miller, the floor is 
yours.

STATEMENT OF THE HONORABLE TERRY MILLER, DIRECTOR OF THE CENTER 
FOR INTERNATIONAL TRADE AND ECONOMICS, THE HERITAGE FOUNDATION 
  (FORMER UNITED STATES REPRESENTATIVE TO THE UNITED NATIONS 
  ECONOMIC AND SOCIAL COUNCIL, UNITED STATES OBSERVER AT THE 
     UNITED NATIONS EDUCATIONAL, SCIENTIFIC, AND CULTURAL 
   ORGANIZATION, AND DEPUTY ASSISTANT SECRETARY OF STATE FOR 
                  ECONOMIC AND GLOBAL ISSUES)

    Ambassador Miller. Thank you very much, Madam Chairman and 
distinguished members of the committee for the opportunity to 
discuss this important issue with you today.
    As we speak, citizens are dying in the streets of Libya. 
But the United Nations Human Rights Council has on its agenda 
the adoption of a report praising the government of Muammar 
Qadhafi for its--and I quote--``commitment to upholding human 
rights.'' How absurd.
    Now, it would be easy to hold up the Human Rights Council 
as a prime example of why reform is urgently needed in the 
United Nations, but the story is actually worse than that. In 
fact, the Human Rights Council is one of the most recent 
products of U.N. reform, touted as the crowning achievement of 
the 2005 World Summit.
    Unfortunately, the new Council operates in a fashion almost 
identical to its predecessor, the same focus on Israel, the 
same membership dominated by countries with poor human rights 
records. The reform changed little, but that didn't matter to 
most U.N. members nor to the Obama administration, which 
decided to join the Council anyway.
    Efforts to reform the U.N. are almost as old as the U.N. 
itself. As early as 1947, the Senate was citing--and I quote 
again here--``Serious problems of overlap, duplication of 
effort, weak coordination, proliferating mandates and programs, 
and overly generous compensation of staff.'' Not much has 
changed. U.N. reform has never been easy, and only rarely has 
it been successful.
    Over the years, U.N. reform efforts have been plagued by 
disagreements and confusion about the basic nature and purpose 
of the organization. They have been hampered by the complexity 
of the issues with which the U.N. system deals, and they have 
been frustrated by structural flaws in U.N. governance, 
decision-making, and budgeting. The U.S. has occasionally tried 
more robust methods to achieve reform with some success.
    One strategy implemented with congressional cooperation has 
been to use America's financial leverage as the largest 
contributor to the U.N. budget to press for reform. The 
Kassebaum/Solomon amendment and the Helms/Biden Act both used 
budget leverage to achieve reforms. Later, during the Oil-for-
Food scandal, just the threat of withholding was sufficient to 
inspire some new accountability in the organization.
    But perhaps the most robust and effective approach to 
forcing reform was the withdrawal of the U.S. from membership 
in UNESCO at the end of 1984. This immediately cost that 
organization 25 percent of its operating revenue and forced 
major reforms and reductions in programming.
    Priority UNESCO activities in areas such as oceanography 
and world's heritage continued to enjoy U.S. financial support 
on a voluntary basis. Interestingly, the organization also 
improved its political orientation in an effort, which was 
ultimately successful, to regain U.S. membership. This reform 
was a 20-year effort.
    A similar strategy of withdrawal from the ILO was much 
shorter and, frankly, didn't work. Yet another U.S. withdrawal, 
this time from UNIDO, has lasted from 1996 to the present and 
reportedly has had a positive impact on streamlining UNIDO's 
priorities and actions.
    What lessons can we take away from all of this? I have two. 
First, the U.N. system is fundamentally flawed in ways that 
hamper its efficiency and effectiveness. There will be no quick 
fixes Second, massive pressure and sustained commitment will be 
required to generate positive change.
    Madam Chairman, the pursuit of significant U.N. reform has 
often been a lonely endeavor for U.S. diplomats, but we may be 
entering an era in which other governments under severe 
budgetary pressures at home are willing to join us in a more 
robust examination of the cost and benefits of various U.N. 
activities.
    Just this week, the United Kingdom has announced that, as a 
result of such review, it will stop funding four U.N. agencies 
it has determined to be ineffective. That is the kind of 
exercise that the U.S. Government needs to undertake if it is 
to properly exercise its fiduciary responsibilities to the 
American public.
    History shows that such activities have been effective only 
when there was strong congressional leadership and oversight. I 
am, therefore, grateful and encouraged by your attention to 
this issue.
    Thank you very much.
    [The prepared statement of Ambassador Miller follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Piccone?

  STATEMENT OF MR. TED PICCONE, BROOKINGS INSTITUTION, SENIOR 
         FELLOW AND DEPUTY DIRECTOR FOR FOREIGN POLICY

    Mr. Piccone. Thank you, Madam Chairman and Congressman 
Berman, for inviting me to be part of this hearing.
    I want to focus my remarks on why constructive U.S. 
engagement of the United Nations, especially on issues of human 
rights, serves our interests. Ever since Eleanor Roosevelt led 
the campaign for adoption of the Universal Declaration of Human 
Rights, the U.S. has played a leading role in creating an 
international human rights system that has had a real impact 
for victims of abuse.
    Regarding the Human Rights Council, I agree that a lot of 
what goes on in Geneva is downright offensive, starting with 
how its members handle Israel. The Human Rights Council, 
however, is a reality. Therefore, we must not abandon the field 
to adversaries like Cuba, Algeria, and China. This would be an 
unconscionable act of betrayal of rights defenders and victims 
around the world, who depend on the U.N. and U.S. leadership.
    We know from past experience that walking away doesn't 
work. During negotiations to create the Council in 2005, the 
U.S. chose a combative approach in getting just three other 
states to join us. Meanwhile, we withdrew from the Council in 
its critical formative years, leaving a vacuum that was quickly 
filled by such countries as Pakistan and Egypt.
    Israel was left without a traditional ally as it faced five 
special sessions while the U.S. was absent. Since we joined the 
Council, Israel has been the subject of only one special 
session.
    The recent action on Libya is another example of the impact 
constructive U.S. engagement has had in turning things around. 
U.S. leadership helped pave the way to condemn Qadhafi's 
actions and demand Libya be removed from the Council, an 
unprecedented step now adopted by the General Assembly in 
record time.
    The lesson learned is clear. Cutting and running only 
allows our adversaries more room to control the results while 
direct participation protects our interests and those of our 
allies. Let me highlight a few specific areas how the U.S. is 
making a difference.
    On country scrutiny, since it was elected to the Council, 
the U.S. has actually increased this kind of scrutiny. In 
addition to Libya, the Council has convened special sessions on 
Cote d'Ivoire, Guinea and Kyrgyzstan, thanks to U.S. 
leadership. The United States has led efforts to ensure that 
Sudan stays on the Council's agenda and won renewed mandates on 
North Korea, Burma, and Cambodia.
    Building on this success, Secretary Clinton announced this 
week the U.S. is spearheading efforts this session to establish 
a special rapporteur on Iran as well as a commission of inquiry 
on abuses committed by the regime in Burma.
    Another tool that the Council has is the special 
procedures. These are the independent experts, who go out in 
the field and investigate human rights issues. My own research, 
which I request be submitted for the record, on how these 
mechanisms work yielded concrete evidence of their positive 
impacts.
    Chairman Ros-Lehtinen. Without objection.
    [Note: The research of Mr. Piccone is not reprinted here 
but is available in committee records or on the Internet at: 
http://www.brookings.edu/reports/2010/
10_human_rights_piccone.aspx (accessed 3/30/11).]
    Mr. Piccone. Thank you.
    They have influence because they are independent, they 
serve in an unpaid personal capacity, but they work under the 
U.N. flag. Front-line activists tell me they rely on these 
experts to get heard at the highest levels of power.
    One of the main hurdles they face, however, is the 
increasing pressure from certain states to constrain them. The 
U.S. has played a critical role in successfully pushing back 
against these attempts.
    On membership, while it is unfortunate that rights-abusing 
states are elected to the Council, there is another more 
positive side of the story. In every case when elections have 
been competitive, rights abusers have lost: Venezuela, Iran, 
Belarus, Sri Lanka, Azerbaijan. Year after year, these states 
have been defeated in the elections. And last year, thanks to a 
vigorous but quiet U.S. campaign, Iran was forced to withdraw 
as a candidate for election to the Council. It is critical that 
the U.S. remains engaged in this effort and that competitive 
slates become the norm.
    The real problem with the Council is not its structure or 
its processes but the lack of political will. One way to 
address this problem is to lean on our democratic allies, 
Brazil, India, South Africa, Indonesia, to carry their weight 
on the Council. The U.S. is pressuring these states to do 
better. And we are starting to see some results. It would also 
be helpful if Members of Congress could weigh in directly with 
their counterparts in these countries to encourage better 
performance.
    I can think, though, of no more powerful tool for cleaning 
up the Council than the unprecedented action this week to 
remove Libya from the Council. This is an historic step, a shot 
across the bow.
    There are other issues, like universal periodic review, 
which I hope to get to in the questions and answers. We have an 
important new initiative on freedom of association that the 
U.S. led the charge on.
    On Israel, the U.S. works very hard to defend Israel 
against the bias of the Council. It is not logical that we 
should conclude that the U.S. should disengage. Indeed, Israel 
itself has not jumped to that conclusion. Israel is very 
actively engaged.
    In the short 5 years since the Council was created, we have 
seen two styles of leadership, one approach where we withdraw, 
the other where we are engaged. It is making a difference. 
Progress will be slow, but we need to stay in the fight and 
continue to demand respect for the universal values we call our 
own.
    Thank you.
    [The prepared statement of Mr. Piccone follows:]

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    Chairman Ros-Lehtinen. Thank you very much. Excellent 
testimony.
    And we will begin our round of questioning. I will cede my 
time to Ms. Ellmers of North Carolina.
    Mrs. Ellmers. Thank you, Madam Chairman. And thank you to 
our distinguished panel today.
    You know, I had in mind a question having to do with Mr. 
Robert Appleton, who actually was with us a few weeks back, who 
was fired from the U.N. after he was exposing some corruption, 
but I don't want to just stop there. I want to get to the root 
of the issue.
    Back in North Carolina, many of my constituents are just 
outraged at the level of corruption and lack of accountability 
in the U.N. And, with all due respect, Mr. Piccone, you are 
pointing out some of the vital jobs and situations where the 
U.N. is probably on the ground doing some wonderful work, but 
in comparison to the level of corruption, the political chess 
games that go on, it is hard for us in North Carolina to see 
our way to not being able to create or build a school. And, 
yet, we are pouring billions of dollars into countries who have 
dictators, terrible situations. And that just doesn't boil down 
to the American household budget.
    So my question to you is, as Americans, are we nothing more 
than enablers? What would be the most effective way that we can 
reform the U.N. straightforward, pulling out, pulling back on 
our funding? Would that wake up the U.N. so that we can get the 
true reform that we need? And I will ask all of our members 
that question. Thank you. Starting with you, Mr. Wallace?
    Ambassador Wallace. Thank you for the question. Just a 
quick comment on Bob Appleton. I think those of us who served 
in the department at that time when Bob served at the U.N. I 
think would only have high praise for Bob. He had a very 
difficult task in conducting investigations, which any good 
organization needs when there are accusations of corruption. 
And he ferreted out some problems.
    I think one of the great challenges for a thoughtful 
diligent investigator like Bob, who is as apolitical in my 
opinion as they come, just a solid guy, is that when you find 
wrongdoing and you bring a complaint or charge against an 
individual in the U.N. system, that individual has a country 
that they are from. And frequently because U.N. is home to so 
many former civil servants from various countries, it becomes a 
bit of gamesmanship between member states seeking to protect 
their nationals from allegations of wrongdoing. And when you 
are good at your job and find corruption and it affects enough 
individuals from enough member states, you incur the wrath of 
the member states. So it is a challenge.
    I do think that the issue of the U.N.--and I think that it 
is really important that we thoughtfully engage and see the 
good part and the bad part. I obviously was a Republican 
appointee. My job was to try to engage in the reform of the 
U.N. Whenever you try to reform something, you have to identify 
weaknesses. So you are by definition a critic.
    U.N. does perform some valuable tasks: Peacekeeping, one. I 
think some of the sanctions resolutions are very important. 
There are other important things that it does, too. But I think 
we have to impose some twenty-first century levels of 
management transparency and accountability on this organization 
just similar to what we do in a nonpartisan way here in the 
United States, whether it is our NGOs, our not-for-profits, 
even our Government institutions.
    That is why when we rolled out the United Nations 
Transparency and Accountability Initiative, we wanted to 
overlay and try to have true transparency in operations the way 
we do in our Government, where you can get in close to it and 
then with that transparency holding the U.N. and its related 
funds programs and specialized agencies accountable to member 
states.
    I think that is a reasonable thing to ask of somebody, of 
an entity that we give money to. And I don't believe that 
anybody in this room in a private discussion would look at any 
of these reforms that we are talking about and say that they 
are unreasonable or somehow Republican or Democrat. It is just 
not the case. These are reasonable things that we should demand 
and expect of our international colleagues.
    Mrs. Ellmers. Thank you.
    Ambassador Miller. Thank you very much for this question. 
You talk about corruption. This really goes to the heart of the 
issue. The U.N. is a membership body, 192 member states right 
now. And each of these states brings with them their own values 
and their own habits. And many of the states in the world, 
sadly, are horribly afflicted with corruption.
    Corruption is a daily fact of life in these states. Many of 
them don't respect human rights. Many of them are not 
democracies. And when they come to the U.N., they bring these 
values with them. So that afflicts the organization.
    Chairman Ros-Lehtinen. Thank you, Mr. Ambassador. We will 
continue with that, I am sure, in some of the other questions. 
Sorry. Ran out of time.
    Now, please, to yield to our ranking member, Mr. Berman, 
for his 5 minutes.
    Mr. Berman. Well, thank you, Madam Chairman. Ambassador 
Wallace, I particularly liked what I thought was an eloquent 
critique of the piling on of mandates that the U.N. has adopted 
over the course of years and need to reform it.
    For a while, I thought you were talking about the Foreign 
Assistance Act of 1961, same kind of problem. We pass stuff. We 
don't review it. We end up not really looking at what today's 
priorities are and addressing them. And I support that effort 
at the U.N. as well as in reviewing our foreign assistance 
legislation.
    Ambassador Miller, two things. One is you made note of--and 
it would be humorous if it weren't so depressing to look at the 
universal periodic review document for Libya. But I am happy to 
tell you that based on my conversations with the State 
Department yesterday, that has been shelved. There is something 
that goes even too far for the Human Rights Council.
    But I do want to call you on one other thing. I think it 
was your testimony that left the impression that the Helms/
Biden language produced reform at the U.N., but your written 
testimony I think is more accurate on this account.
    That deferral of payment of dues, that withdrawal, which is 
apparently the model for legislation we will be considering 
soon, was probably helpful in achieving the lower assessed 
rate, but it produced no lasting reforms. And I quote from no 
less an authority than Ambassador Miller, ``Sadly, neither 
Helms/Biden withholding nor even the long UNESCO withdrawal can 
be shown to have had much long-term impact on the efficiency, 
effectiveness, or even the integrity of the U.N. system.''
    I would argue that these withholdings don't accomplish the 
kind of reform that a sustained engagement would. And for that 
purpose, I would like to give the rest of my time to Mr. 
Piccone, who never got to answer Congresswoman Ellmers' 
question and to perhaps address that and points you would like 
to make with reaction to the testimony of the first two 
witnesses.
    Mr. Piccone. Thank you, Mr. Berman.
    I would want to start by noting that when we think about 
the investment that we are making and what this costs, in fact, 
the U.S. contribution to the U.N. amounts to only \1/10\ of 1 
percent of the Federal budget. And what are we getting for 
that?
    We are getting a tremendous amount of services that are the 
force multipliers we have talked about before and feeding 
people and supporting elections, vaccinating children, keeping 
the peace, sheltering refugees. This is a good return for our 
dollar because we care about those kinds of issues around the 
world. And we have an important role to play.
    As you also know, in terms of peacekeeping operations, it 
would cost the United States eight times as much as the U.N. to 
respond, for example, to the earthquake disaster in Haiti. We 
are sharing the burden of responsibilities that we have adopted 
as the leading state of the world. And by sharing that burden, 
we are returning good investment for the U.S. taxpayer. And I 
think that is important.
    The other point to make in terms of reform more generally 
is that the U.N. is slowly changing in some important ways in 
terms of management reform. Thanks to Ambassador Wallace, 
Ambassador Miller, and the work of many other diplomats over 
many years, we have pushed internally, because we have been 
constructively engaged, for internal oversight reforms, 
whistleblower protections, new Office of Ethics run by an 
American. On and on there are lists of things that show that we 
are starting to grasp the real details, modernize the 
institution, and get some control over the situation.
    At the end, there does need to be some review and control 
of mandates. They are out of control. But the real money is in 
the peacekeeping. I mean, that is what a lot of our 
contribution goes to. And I think on general terms, we get a 
good return on the dollar for our peacekeeping operations.
    Thank you.
    Chairman Ros-Lehtinen. Thank you very much.
    Now I would like to recognize Mr. Chabot, the chairman of 
the Subcommittee on Middle East and South Asia, for 5 minutes.
    Mr. Chabot. I thank the chairman.
    Ambassador Miller, just under a year ago, Secretary Clinton 
announced that the U.S. would be joining the U.N. Human Rights 
Council. As we all know, the Council was created back in 2006 
out of the ashes of the Commission on Human Rights when after 
years of failed reforms the international community simply gave 
up.
    Unlike its predecessor, the new Human Rights Council was 
supposed to embody the principles laid out in the U.N. General 
Assembly resolution 62-51. Now, that resolution states, and I 
quote, ``When electing members of the Council, member states 
shall take into account the candidates' contribution to the 
promotion and protection of human rights and their voluntary 
pledges and commitments made thereto.''
    Over half of the Council's current members do not even meet 
Freedom House's basic standards for freedom. They are members 
of the Council, but they can't even be called free. Let's face 
it. The Human Rights Council that exists today could not be 
further from the principles in this resolution.
    According to a recent NGO report, more than 80 percent of 
all the Human Rights Council's condemnatory resolutions, 27 out 
of 33, have been against Israel. Moreover, the Council failed 
to adopt any resolution, special session, or investigative 
mandate for numerous violators on Freedom House's list of the 
20 worst abusers in the whole world.
    Upon being elected to the Council, Ambassador Rice noted 
that she looked forward to working from within the Council with 
a broad cross-section of member states to strengthen and reform 
it. From where I sit, it seems to me that this was a mistake. I 
believe that by joining the Council, all we have done is lent 
our legitimacy to a Council that is so rotten it is an 
international joke. And our association soils our image.
    When speaking on Libya's suspension from the Council, it 
noted that the General Assembly, by contrast, today has acted 
in the noblest traditions of the United Nations and made it 
clear that governments that turn their guns on their own people 
have no place on the Human Rights Council.
    Membership on the Human Rights Council should be earned 
through respect for human rights and not accorded to those who 
abuse them. This would be a nice sentiment if countries like 
Cuba and China weren't on the Council, mocking its very 
existence.
    Why not withdraw our participation from the Council? And if 
not, what in your opinion should the U.S. be doing to reform 
this--in my view--morally bankrupt institution?
    Ambassador Miller. Thank you very much. And I agree 
completely with your sentiments.
    In terms of elections to the Council, it is important to 
note that though the lip services paid to the idea of 
competitive elections, most of the regions put forward agreed 
slates that are based just on rotation among the regions. So 
everyone has an equal chance to participate.
    The only region that dependably has competitive elections 
is the Western European and others' grouping, which includes 
the United States and Western Europe. So they have competitive 
elections, but the other regions in general don't. So that is 
how you get these serial violators of human rights on the 
Commission over and over again.
    I just want to make the point there is a tendency here in 
the discussion to draw a dichotomy between engagement, on the 
one hand, and these measures of power that the U.S. might 
enforce on the other two to try to increase reform.
    And when we use the budgetary card that we have, which has 
been given to us by the fact that we are a very big country and 
we pay a disproportionate share of the U.N. budget, that 
reflects our power in the world. And for us to play that card 
does not mean we are not engaged in the reform process.
    In fact, when we are negotiating on the basis of Helms/
Biden or the Kassebaum/Solomon Act or when we withdrew from 
UNESCO, for example, we were more engaged with the U.N. as a 
result of those discussions or those actions than we were when 
we were just going along as a normal member, like all of the 
other 192 countries. These are tools with which we engage the 
reform debate and with which we exercise U.S. leadership and 
the reform process.
    So it is not a let's disengage and say goodbye to the U.N., 
on the one hand, or let's just accept the normal membership, 
just like every other small country in the world. The point is 
to exercise the power and influence of the U.S. in ways that 
reflect our values and our position in the world and our 
contribution to the activities of these organizations.
    Thank you.
    Chairman Ros-Lehtinen. Thank you so much. Thank you.
    Mr. Deutch from Florida?
    Mr. Deutch. Thank you, Madam Chair. Thank the panel for 
being here today. And, Ambassador Wallace, I would especially 
like to thank you for your leadership at United Against Nuclear 
Iran. And I would like to start with your work there and how 
that ties into this hearing.
    The Security Council has often given the United States a 
platform to advance its international interests. The passage of 
sanctions against Iran at the U.N. not only sent a message 
about the international community's intolerance of the regime's 
quest for nuclear weapons but provided a legal platform for 
other countries around the globe to enforce sanctions.
    In the wake of the IAEA reports last week that Iran is now 
looking at weaponization, is there a chance for tougher 
sanctions coming out of the Security Council? And if you could 
speak more broadly to the role of the United States at the U.N. 
in furthering those efforts?
    Ambassador Wallace. Thank you for the question. I feel very 
strongly, obviously, about promoting economic pressure on Iran 
and trying to change the behavior of that regime as it relates 
to obtaining a nuclear weapon and treatment of its own people 
sponsoring terrorism and the like.
    I certainly hope there is an opportunity for additional 
sanctions of the Security Council. I think that your 
legislation, Iran Transparency and Accountability Act, that was 
introduced recently, which focuses on SEC disclosure of 
companies that do business in Iran; the recent statements by 
the Treasury Department listing additional individuals. And 
what we are seeing now occurring in Iran will hopefully spur 
action on the Security Council.
    I spoke to Ambassador Rice recently. I believe that there 
is hope for that. I think what we are seeing, there are 
obviously large dramas in populations around the Middle East 
and North Africa right now. And I hope the very important 
potential change that could occur in Iran is not being lost in 
that. I think that this, the United States Congress and the 
United States, can lead. I think European Union can lead as 
well by imposing rigorous sanctions, even beyond the 
Comprehensive Iran Sanctions Act that was passed last year.
    I think the next step would be to say to any company that 
is involved in doing business in Iran to the extent that they 
avail themselves of the U.S. capital markets, that they need to 
disclose in their financial statements whether or not they do 
business in Iran. It is time for every company that touches 
these U.S. capital markets to come clean about doing business 
in Iran.
    Mr. Deutch. Thank you, Ambassador Wallace.
    Mr. Piccone, when we, when this committee, had its last 
hearing on the U.N. a few weeks ago, we briefly touched on the 
idea of imposing standards for membership in the Human Rights 
Council. We need to look no further than this week's action by 
the Council to suspend Libya as evidence why standards should 
be imposed.
    I would like you to speak to the ongoing efforts to create 
standards for membership to the Human Rights Council and why 
such standards were absent from the recommendation to the 5-
year working group adopted on February 24th.
    And then if you could really try to flesh out what those 
standards would look like and then apply them to the current 
members of the Human Rights Council?
    Mr. Piccone. I will do my best to answer that. There are 
some standards in the original creation of the Council. States 
need to make pledges showing that they are committed to 
upholding human rights and that they once elected will 
cooperate with the Council.
    And we know that many of those states do not cooperate with 
the Council. So that criterion should be enforced more 
directly. I mean, they should spell out ways of showing that 
this state is not cooperating with the Council and is, 
therefore, not eligible for membership. That is one idea.
    The other point to make is that the Libya case I think 
exactly proves that the membership criteria that exist are 
meaningful. It says, ``States that commit gross and systemic 
abuses shall be removed from the Council in a two-thirds vote 
of the General Assembly.'' We just saw that happen. That 
crossed an important new threshold and set a new precedent that 
I think may be used in the future and could deter others.
    Mr. Deutch. All right. Mr. Piccone, just in the remaining 
time that I have, if you could focus on the current members of 
the Human Rights Council and applying those standards, where 
should we turn next as we seek to enforce those standards?
    Mr. Piccone. I think there are a number of states that we 
would want to focus on and say, ``Hey, it is time to also hold 
this state accountable'' and start a debate.
    I think it goes back to the competitive slates issue again. 
Unfortunately, WEOG has not run too many competitive slates. 
And the competitive slates we have seen in Asia and other 
countries----
    Mr. Deutch. Which states? Where should we start on the 
Human Rights Council?
    Mr. Piccone. Well, there are, you know a number of states. 
One case that is coming up is Syria. Syria wants to be a member 
of the Council. And we should make sure that they are not 
elected.
    Mr. Deutch. And the first state that we should focus on 
after Libya?
    Mr. Piccone. I would have to come back to you and look at 
the list. Thank you.
    Mr. Deutch. We can try. Thank you.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Deutch.
    Congressman Chris Smith, Chairman of the Subcommittee on 
Africa, Global Health, and Human Rights?
    Mr. Smith. Thank you very much, Madam Chair.
    Let me just ask you about the issue of mandates and the 
various U.N. agencies as well as the treaty bodies. I am very 
concerned that, although the U.N. agencies and treaty bodies 
are intended to work within their mandates--and it should be 
very specific because, certainly with regards to the treaties, 
it couldn't be more specific--and be receptive to the input of 
a wide variety of nongovernmental organizations, the fact of 
the matter is that U.N. agencies and treaty bodies clearly 
favor certain ideologically driven NGOs in both funding and the 
opportunity to shape policy.
    For example, if you search the unfpa.org Web site, there 
are over 1,000 references to the International Planned 
Parenthood Federation. Just last Friday at a U.N. event, UNFPA 
praised a Center for Reproductive Rights report and asked the 
attending ambassadors to read it, regardless of the fact that 
the center's worldwide goal is to establish an unfettered right 
to abortion in every country of the world, including access to 
abortion by minors without parental notification or consent.
    We all know that U.N. agencies push their mandates, as they 
should, but they also almost like contract out and empower NGOs 
to do what the agencies are not permitted to do. They seem to 
exceed it and nobody holds them to account from time to time.
    My question is, how do we ensure that those NGOs who have a 
different point of view have access to the U.N. and can 
participate more robustly? They are absolutely marginalized. 
And I know that for a fact. Do you have any ideas on this, no 
matter where you come down on any of these other issues?
    I was at the U.N. population conference in Cairo. I was at 
the Beijing women's conference. Even though there are prep coms 
and the like, we know who wrote the language. It was the NGOs 
that wrote the language for those conferences.
    What are your thoughts on that? How do we open this system 
up for more diversity and opinion? Yes, please?
    Ambassador Wallace. I will be brief to allow Terry because 
Terry covered a lot of these issues. I think the first step--
and perhaps this is a perilous thing to raise, but the very 
public debate that we are having about the budget of the United 
States Government that is going on right now is instructive. 
Why shouldn't every one of these U.N. funds programs and 
specialized agencies publish their budgets online, put their 
procurement activities online to show where there money is 
going? Because then we can have a political debate whether or 
not we think it is right, wrong.
    And I am sure there will be divergent views. But the very 
first step that we should have is transparent budgeting, 
transparent procurement activities. And that is something that 
is reasonable to ask of these U.N. funds programs and 
specialized agencies if we are going to continue to fund them. 
That is a basic thing that we should all be able to agree upon 
here today.
    Terry?
    Ambassador Miller. Yes. Thank you very much.
    This is a very serious problem. And I think at the heart of 
it is the lack of democratic accountability anywhere in the 
system. What happens is that these various agencies and 
activities get captured by special interests. And those special 
interests, then, have enormous, exert enormous, influence over 
the work program and the ideological agenda that are pursued in 
these agencies.
    And I think we are going to have to find a way to insist 
that if, in fact, we are going to involve NGOs in the 
activities of the U.N., I think that is a good thing in 
general. It must be an absolutely evenhanded, open, and 
transparent purpose. We probably need more NGOs, not fewer. And 
we need more evenhanded treatment of them in the process.
    What we have now are many--Planned Parenthood you mentioned 
is one--that have an extraordinary amount of influence because 
of their historical cooperation and the funding that they 
receive.
    I think we probably need to look at the funding issue very 
carefully because many of these NGOs actually receive funding 
from the U.N. system. And then they, in turn, exert influence 
back on the programs. So it would be easy to imagine a kind of 
corrupt cycle involving funding there.
    So we need the transparency, as Mark said. We need the 
absolute openness in the system. And then we need some way to 
make the activities of these specialists in the system 
accountable, at least to member states, if not in the true 
sense of democratic accountability that we enjoy here in the 
U.S.
    Mr. Piccone. I am all for more civil society involvement 
with the U.N. because it is the U.N. NGO committee that needs 
reform. I know from personal experience what it means to go up 
against that committee. I was denied credentials. We appealed 
it to ECOSOC and won, thanks to countries like U.S. and Israel 
and others that defended us. That is what we need to do more 
of.
    Mr. Smith. I appreciate it, Madam----
    Chairman Ros-Lehtinen. Thank you so much, Mr. Smith. Thank 
you.
    Mr. Cicilline?
    Mr. Cicilline. Thank you, Madam Chairman.
    This hearing comes at a particular interesting time, I 
think, as we are engaged in an increasingly complicated and 
interconnected world. And we see examples of this springing up 
all over the world.
    I think the testimony today reveals that everyone agrees 
that the single greatest source for reform and improvement of 
the U.N. is the United States. And so I think our challenge is, 
how do we determine a greater and more forceful role for the 
United States in this important institution?
    Clearly we should not tolerate in any way fraud, waste, 
corruption of any kind. And the efforts to ferret that out 
should continue relentlessly. But what I would like to ask 
about specifically is the Human Rights Council because since 
the United States joined that Council in 2009, some things have 
happened.
    Our membership on the Council has allowed us to better 
support Israel and to reduce the imbalance that has been 
referenced today and the Council's work. The efforts of the 
United States and other nations derailed Iran's candidacy for a 
seat on the Council. U.S. diplomats overcame objections by 
countries such as China and Cuba and succeeded in persuading 
the Council to establish a new monitor for implementation on 
the rights of assembly and association and to hold governments 
accountable that do not uphold fundamental freedoms.
    The Council also created a new mechanism to fight 
discrimination against women and to provide expertise to 
governments that seek advice on improving the opportunities 
available to women and girls. And the Council also extended the 
mandate of the Human Rights Monitor in Sudan, overcoming the 
really strong objections of the Sudanese and other African 
countries.
    And so it would seem to an outside observer that our 
presence on the Council has, in fact, improved the operations 
of the Council. And my question is whether or not you think any 
of those things would have happened if the United States had 
not actively participated in the Council. And specifically 
would you speak about the efforts of American diplomats in 
preventing Iran from becoming a member of the Council? We will 
start with Mr. Piccone, please.
    Mr. Piccone. Thank you very much. I think you have given a 
good list of some of the accomplishments. I would note that on 
country scrutiny, this goes on not just with the condemnatory 
resolutions and special sessions, but the universal periodic 
review process means every single country is being reviewed.
    And there is a year-round process. The special rapporteurs 
bring country reports to the table. And they are debated and 
discussed. All countries are facing this but particularly 
countries that the old commission never really addressed before 
in the past. I think that is critical.
    Another way that U.S. leadership has made a difference is 
we have a new U.S. Ambassador who is full-time engaged with the 
Council, Eileen Chamberlain Donahoe. And I hope that the 
committee gets to hear from her because she is an outstanding 
example of what U.S. leadership can do.
    She has made a big difference in the kind of hand-to-hand 
combat that has to go on not only in Geneva but in capitals. 
And working with the team both in Washington and New York, we 
have a much more concerted effort going on. So when there are 
problems that we face in Geneva, a phone call is made by senior 
officials to capitals to get them to change their positions. 
And it is really starting to make a difference.
    And, as I said before, with some of those kind of middle-
tier states that sit on the fence or abstain, we are starting 
to see some progress with those states. And I think, thanks to 
the kind of role that the U.S. is playing, we need to remain 
engaged in that kind of spirit of, you know, we recognize, we 
are realistic about the faults and the problems of the Council, 
but we can fight from within.
    I think if we leave, we are really abandoning the field. 
And we are abandoning our friends on the front lines who need 
us to be the voice of reason at the Council.
    Thank you.
    Mr. Cicilline. Thank you. I yield back.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Griffin, Subcommittee on Europe and Eurasia vice chair?
    Mr. Griffin. Thank you, Madam Chair.
    Mr. Wallace, great to have you here today. I have known you 
for a long time. And I appreciate your testimony. I have a few 
questions about Iran. I want to explore a little bit about what 
my colleague was just discussing.
    With regard to the sanctions that have been implemented, it 
seems that Iran has tried to mitigate the sanctions and 
mitigate the impact of the sanctions by trying to accomplish 
some things through the U.N., such as membership, as we just 
heard, on the Human Rights Council.
    Can you comment generally about Iran and its work within 
the U.N. and maybe other examples of it trying to leverage its 
position in the U.N. to mitigate some of the international 
sanctions and problems that it has had?
    Ambassador Wallace. Thank you for the question. It is great 
to see you up there, Congressman.
    I think that it is important in discussing exactly what 
membership in the U.N. means. Why should a sanctioned U.N. 
member country, like Iran or North Korea, be allowed to run for 
leadership positions in the U.N. when they are defying the very 
rules ostensibly of the membership organization?
    I mean, Iran, North Korea, and others are subject to 
rigorous sanctions and are defying those sanctions. And I think 
that it would be a reasonable thing to assert that if you were 
defying the rules, if I were defying the rules of this 
committee, I am sure I would not be allowed to testify before 
this committee. I think that is a reasonable thing to assert.
    Sanctions are like a game of Whack-a-Mole. The targeted 
sanctions are the best sanctions. When they are targeted on 
individuals or on specific areas, they are the best. In the 
wake of the comprehensive Iran Sanctions Act, focusing on 
refined petroleum, Iran moved the cheese. They tried to enhance 
their refined petroleum capacity.
    I think that the goal that we must take in Iran sanctions, 
whether it be at the U.N. or in this Congress, is to try to 
find a mechanism to make it such that any company and companies 
that do business in Iran are as pariah or treated as pariahs, 
as a pariah regime.
    I think you have seen that happen because of the great work 
of this body. Members on both sides of the aisle have done 
great things with legislation, the work of the U.N. sanctions 
resolutions and the Security Council have been very, very 
valuable in that regard. The European Union has passed 
sanctions rules. We can do much more and, as I mentioned 
previously with Congressman Deutch and others who are 
supporting legislation, to make it so that any company that is 
doing business with Iran has to come clean.
    For too long when we started United Against Nuclear Iran 3 
years ago, we were really troubled because there was no place 
to go to find the list of companies and entities that were 
doing business in Iran. We have tried to compile that list.
    With your help, we can make it be so that any company, 
wherever they are based around the world, if they avail 
themselves of the U.S. capital markets, that they have to 
disclose in their regulatory filings whether or not they are in 
Iran. That will be precise information that our diplomats at 
the U.N., our diplomats in the European Union can then take and 
focus that sanction work on that information that is disclosed 
in our regulatory filings. And I know that this committee and 
various members on both sides of the aisle are very much 
focused in that area.
    One thing on the Human Rights Council, there are only two 
options. The United States lends its imprimatur to a U.N. body 
that is bad or we try to go in and make it better. That is a 
thoughtful debate.
    I disagree with my colleague, respectfully, on this. The 
Bush administration didn't want to lend its imprimatur to the 
Human Rights Council because they thought it was fundamentally 
flawed.
    The Obama administration has said that it wanted to engage 
and show leadership. I believe that they have shown the 
leadership. They are doing a good job of making sure that the 
Human Rights Council functions sort of in a way that it should, 
but I don't know that it is affecting human rights around the 
world. I know it is affecting human rights on the Human Rights 
Council, but I don't know if it is doing anything else around 
the world.
    And I think that there is a real question of a difficult 
decision. The Durban Review Conference on Racism, the Bush 
administration took the position that we should not fund it and 
we should not support it. The Obama administration ended up 
walking out and leaving that conference, leaving it. That was 
abandoning the field under that analysis.
    I think both sides are actually reasonable positions. And 
they are difficult things. The question is, do you lend your 
imprimatur of the great power of the United States, the one 
hegemon in the world and the one that we are all so devoted to, 
or do you go in and try to reform it in the inside? The case is 
that the Bush administration, the Obama administration have 
done both on both sides.
    Chairman Ros-Lehtinen. Thank you very much.
    Mr. Carnahan, ranking member of the Subcommittee on 
Oversight and Investigations?
    Mr. Carnahan. Thank you, Madam Chair.
    And, again, we appreciate the witnesses here today. I 
really wanted to focus on a couple of areas and start with Mr. 
Piccone. We have had a lot of discussion here today about 
engagement or not, funding or not, you know, voluntary or not. 
Can you quantify some of the achievements that you see from 
being engaged and, you know, fulfilling our obligations versus 
times when we have taken another course and how you see that, 
how you can really quantify that difference?
    Mr. Piccone. Sure. As I tried to point out in my remarks, I 
think when we look at the creation of the Council, there was a 
time when the U.S. did take a combative approach that really 
sought to cross the agenda of the summit in 2005, sought to 
push things through in a way that did not bring allies around. 
So in the end, we were isolated. I think that is not the way to 
go about it.
    I think a more engaged process has got us the kinds of 
results we are starting to see, starting to see, in Geneva. 
There is a lot more work that needs to be done. But whether it 
is the number of special sessions that are focused on other 
countries, where real problems are occurring--and I would have 
to say that in terms of impact on the ground--and I have done a 
lot of research on this issue--the Human Rights Council does 
have impact on the ground, particularly through these 
independent experts.
    I mean, these independent experts get in and see political 
prisoners. They see journalists who have been charged on 
outrageous claims of deformation. And they are getting them out 
of jail. They have gone to visit prisons and helped women and 
children in prisons get food and health care. And there are 
cases and cases that I document in my report where the U.N. 
Council's instruments are actually on the ground in the field 
making a difference.
    And we don't hear about those stories very much. But they 
are happening. And I think the U.S. support to not just the 
Council but there is a wider system of work that the Office of 
the High Commissioner, the International Criminal Court and its 
other tribunals, their field offices that OHCHR runs. I mean, 
these are the kinds of arms and eyes and ears that we are out 
there in the field helping people who need help. And I think 
that is the kind of results that we get when we are engaged and 
paying our dues.
    I think when we say that we should move to voluntary 
funding, what worries me about that is that it is kind of an a 
la carte cherry picking what we want, but I think we are going 
to end up having to pay more.
    I mean, if you look about our missions in Iraq and 
Afghanistan, I mean, we are investing, you know, billions of 
dollars. It is important that we leave behind the kinds of 
institutions that work. I mean, we have to respect the 
sacrifice of our own soldiers in leaving something behind. The 
U.N. is in there with the kind of political missions that are 
making a difference in the ground in those as well.
    So if we didn't have that kind of instrument, I think we 
would end up paying a lot of the costs ourselves. This is a way 
to share the burden with our allies, with others on things that 
we need to get done.
    Mr. Carnahan. Thank you.
    And, Ambassador Wallace, I wanted to ask you. In '05, when 
the Hyde U.N. Reform Act came up, I voted against that, but 
also the Bush administration said at the time that the bill 
could detract from and undermine our efforts to reform the U.N. 
Do you agree with that kind of approach in this debate we are 
having here today?
    Ambassador Wallace. Again, not to tread imperilous ground, 
if this committee were considering a U.S. Government budget 
that was a 25 percent increase from last year, nobody here 
could vote for that. You would be voted out of office in my 
opinion.
    When I was considering the budget and we were negotiating 
the budget, it was a 25 percent increase from one budget to the 
next exclusive of the peacekeeping missions, which I agree when 
we are so heavily invested in these peacekeeping missions, we 
have an obligation to pay. But a 25 percent increase, that is 
outside of the norms of any state around the world or any 
international organization.
    In terms of withholding, at the risk of saying a bad word, 
I have a slightly nuanced approach. I think that it is very 
reasonable, Madam Chairman, to impose the things that you seek 
to impose in your model legislation. These are basic things 
that no one in this room in private should be able to disagree 
with and say to a U.N. agency or an international organization, 
``You need to do these very basic transparency and 
accountability measures, like having your budgets online, 
having an ethics office, having financial disclosure, very 
basic things. And if you don't do those, we are going to 
seriously consider not paying our dues in the future.''
    I don't like not putting agencies on notice now of what we 
expect of them and then withholding. I don't think that is 
appropriate.
    Chairman Ros-Lehtinen. Thank you.
    Ambassador Wallace. I think we should let them know.
    Mr. Carnahan. Thank you, Madam Chair.
    Chairman Ros-Lehtinen. Thank you so much. Thank you, Mr. 
Carnahan.
    Ms. Buerkle of New York, Subcommittee on Terrorism, 
Nonproliferation, and Trade vice chair? Thank you.
    Ms. Buerkle. Thank you, Madam Chairman and thank you to our 
guests here this morning.
    My first question is a simple ``Yes''/``No'' to the three 
of you. You know that Congress has just looked at the health 
care bill. And we looked at it. It was so complicated, so 
costly. Many argued it was not in the best interest of the 
American people. And so, rather than trying to fix what was 
there, we opted to repeal it. We voted to repeal it. And we 
will replace it with true health care reform.
    So my question to the three of you today--and I had this 
thought as my colleague Steve Chabot was speaking--is the U.N. 
fixable or should we do as he said and just withdraw? I will 
start with Ambassador Wallace.
    Ambassador Wallace. I think it is our obligation to try to 
fix the U.N.
    Ms. Buerkle. Ambassador Miller?
    Ambassador Miller. I think it is probably not fixable 
without huge effort and undertaking by the United States, maybe 
a charter reform conference, something like that. This 
piecemeal reform we undertake is not having much of an impact.
    Ms. Buerkle. Thank you.
    And Mr. Piccone?
    Mr. Piccone. I think the U.N. is fixable with a tremendous 
amount of effort and constant, constant regular attention by 
this committee and by the Congress and by, you know, our really 
top diplomats in New York who are on the case.
    Ms. Buerkle. And so in response to your responses, would 
you be willing to lay out for us what you would consider to be 
effective reform that would truly get our participation in the 
U.N. to a point where the American people and the Members of 
Congress are comfortable with that?
    Ambassador Wallace. I think you have it before you. I think 
that the U.N. Transparency and Accountability Act that the 
chairman described is really important. There are eight areas 
of reform that we laid out, budgets online identifying 
procurement activities, financial disclosure policies, ethics 
offices, oversight bodies, adoption of IPSAS, International 
Public Sector Accounting Standards. These are basic things.
    The first thing that we have to do is understand what is 
happening in the U.N. And because of these exploding mandates 
that I think are unlike anything in the world, even though I 
understand the comparison by Mr. Berman and I think it is a 
good one and I appreciate it--I really do--I think that these 
exploding mandates are a different level of bureaucratic 
expansion than anywhere else in the world. And the first thing 
that we have to do is understand what every one of these U.N. 
funds programs, specialized agencies, and the Secretariat are 
doing.
    The Secretariat has actually made some progress in the 
area. I mean, in terms of these eight areas, these eight areas 
really mostly apply in my opinion to the funds programs and 
specialized agencies, which is very, very important.
    As soon as we identify and have transparency and understand 
what is happening in those agencies, then I think we can impose 
and have a thoughtful policy debate about what we like and what 
we don't like.
    Ms. Buerkle. Thank you.
    Go ahead. I have a question for Mr. Piccone that I want to 
end up with. Go ahead. Go ahead, Ambassador Miller.
    Ambassador Miller. Thank you very much. I agree completely 
with Ambassador Wallace, but I wanted to add two things to 
essential elements. One is you absolutely need to somehow 
attack the one country, one vote decision-making process in the 
U.N. That is a corrupting process that doesn't reflect the 
realities of power in the world or the realities of levels of 
contribution to the organization.
    The other thing is you need to move to a system where much 
more of the funding is on a voluntary basis, where only the 
core activities of maintenance of the Secretariat are done on 
an assessed basis. And that should probably be evenly shared 
among the membership. And then the additional activities could 
be funded voluntarily.
    Ms. Buerkle. Thank you.
    And my next question, Mr. Piccone, is for you because in 
your opening remarks, you mentioned that it is better for us to 
be a participant because we can affect change from the inside 
much easier than from the outside. And we heard that from the 
administration in 2009 as well.
    And I should say you also mentioned our participation. And 
how we are helping is real. Can you give me some specifics that 
the United States in our participation--what we are doing to 
help decrease the anti-Israel bias in the U.N.?
    Mr. Piccone. There is a long record and a good one that 
shows that the U.S. has defended Israel throughout, not only in 
Geneva but in New York as well.
    I mean, I think the point about the special sessions having 
gone from five to one since the U.S. has been on the Council, 
that is one example. The U.S. stands with Israel in voting 
against those biased resolutions and demands that those 
corrections happen wherever possible.
    The U.S. has supported Israel in various ways in New York 
as well. I mean, the Durban protest is an example where the 
U.S. can walk away selectively. I think there is a time and 
place where you have to say that this isn't working. But up 
until that point, we need to be fighting. You know, sometimes 
it is tedious and difficult, but----
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Ackerman, the ranking member of the Subcommittee on 
Middle East and South Asia?
    Mr. Ackerman. Thank you, Madam Chair.
    I am glad I came. I just heard a new thought. The U.N. is 
very complicated. Just repeal and replace it. You know, nobody 
I knew ever really liked the kid who, when he didn't get his 
way, would just take his ball and go home. I don't know if that 
is what we do with the U.N., take our money and leave. How does 
that make anything any better?
    I think part of the problem is that some of my colleagues 
are too young. They don't remember the cowboy movies. About 46 
or -7 minutes into the movie, there was always a runaway 
stagecoach. And the good guy, you knew who he was because he 
always had the white hat, and it never fell off. And he would 
be riding, risking life and limb to catch up, and he would jump 
on the runaway lead horse of the runaway stagecoach so that he 
could help steer it in the right direction.
    If you have got a runaway, you can't fix it unless you help 
drive. I don't know, if we walk away from the U.N. because we 
don't like a decision that it makes, that it helps us any. 
Maybe we should just set up a different U.N. with those 
countries that agree with us all the time. Then you could have 
two U.N.s. Or maybe you could join both, so you walk out of 
one, one day and come to a pretty good consensus with the 
people that you are with, and maybe just go over to the other 
one the next day. I don't know how that works to make the world 
a better place. How does that help us?
    I mean, everybody brings up Israel in this context. I 
haven't heard the Israelis tell us to quit the U.N. I don't 
know of a country on the planet that was happier when the 
United States of America was at the United Nations the other 
day and vetoed an important resolution that would have 
condemned it and further isolated it in a very dangerous world.
    I don't know how we speak for the Israelis and say we 
shouldn't be in the U.N. because of them. I mean, don't put 
that on them. I don't think they would be ashamed to tell us we 
should quit the U.N. It doesn't seem to me that they have quit 
the U.N. It seems to me that they sit at pretty raucous tables. 
And sometimes they plead with the other guys, they disagree 
with to come back to the table, or sit at the table, so they 
could discuss the differences.
    Much has been made about some of the wacky people or 
countries that get to sit on this Council. You know, these 
ambassadors and countries are selected by their own people. 
They are the judge of their own qualifications, whether they 
think they meet the standards or not. I mean, every once in a 
while some of us come to a conclusion that there are some 
pretty crazy people that get elected around here, nobody in 
this room for sure.
    But, you know, when crazy people have a crazy notion and I 
don't agree with it, should my side just get up and leave the 
room because we know what the vote is going to be? Or should we 
stay here and fight for what we believe in to try to change 
people's minds and make the points that we have to make? I 
think that is what is at stake here, our credibility to stay in 
the game, not cut and run, as I think is the phrase of the day, 
which in my mind, Mr. Piccone used.
    How does it help us, or if you are here to defend Israel, 
tell me, you know? I can appreciate that. But how does it help 
anybody if we just walk away? Anybody?
    Ambassador Wallace. Well, sure. Just quickly. I think that 
you made a very eloquent statement. The Bush administration, we 
didn't want to support funding for Durban, but we were open to 
attending. The Obama administration walked out of Durban and 
refused to attend. I don't believe that was cutting and 
running. It was----
    Mr. Ackerman. I have been to Mets games like that where I 
got up and left.
    Ambassador Wallace. But they didn't----
    Mr. Ackerman. You have to----
    Ambassador Wallace. I think that is a fair point, sir, but 
I think it is a thoughtful debate whether you lend the 
imprimatur of the United States or you attend. And it is not 
black and white.
    The Obama administration said that you couldn't salvage a 
conference on racism by all member states because it was so 
anti-Israel. The Bush administration said you couldn't salvage 
the Human Rights Council.
    Mr. Ackerman. Yes, but that is----
    Ambassador Wallace. I think they are both right.
    Mr. Ackerman. That is a ``pick and choose.'' That is not an 
``I am never going to attend the meeting.''
    Ambassador Wallace. Because both administrations did it.
    Ambassador Miller. Yes, but, sir, nobody here is talking 
about cutting and running. We are all, all of us, trying to 
talk about ways to increase the influence of the United States 
in these international discussion and debates.
    Ambassador Wallace. You do it long distance.
    Ambassador Miller. And you use a variety of tools that you 
have available to you to do that. Sometimes that means you 
engage in the process, as Mr. Piccone is talking about. 
Sometimes you might walk away on a temporary basis, like I was 
talking about and experienced with UNESCO. Sometimes you fund 
fully. Sometimes you might withhold.
    The point is to use a variety of tools, every tool 
available to you.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Rohrabacher, the Subcommittee on Oversight and 
Investigations chairman?
    Mr. Rohrabacher. 192 nations in the General Assembly. How 
many of them are democratic nations and free countries out of 
the 192? Half? A little less than half but right around half?
    Mr. Piccone. If you call them electoral democracies, it is 
over 100.
    Mr. Rohrabacher. Okay. So about half, really, because if it 
is over 192. So I would like to remind my good friend from New 
York that all of these representatives in the U.N. that we are 
talking about, they were not selected by their people to 
represent them anywhere to control their countries or to 
represent what is right and wrong in an international body.
    What you have is an organization in which half of the 
members, voting members in the General Assembly, not only are 
brutalizing their own people and don't represent their own 
people in the United Nations but they don't represent their own 
people at home as well.
    So we have a fatally flawed concept where we are saying 
that we are going to look for a global policy based on a 
relationship with an organization in which half the members are 
actually gangsters, thugs, and lunatics, who do not even 
reflect their own people and their own peoples' interest, much 
less the interest of a better world.
    Six billion dollars is what we spend in the United Nations. 
Is that correct? Around $6.3 billion I understand is the 
figure? Now, the point was made earlier that if we were to use 
our own troops somewhere else, rather than a U.N. operation, 
that it would cost eight times as much for a United States 
military force as it would for U.N. troops.
    I understand that we do not get credit for when American 
troops are actually put into use supporting a U.N. operation, 
that we do not get credit in terms of that being part of our 
assessment credit, but other countries do. Is that right? I 
believe it is. So we will let you----
    Mr. Piccone. I don't know the answer other than to note 
that I think there are less than 100 U.S. military personnel in 
peacekeeping operations.
    Mr. Rohrabacher. Right now. That is correct, right now.
    Ambassador Wallace. That is correct. It is small, a 
relatively small number. I don't know the answer to that 
specifically.
    Mr. Rohrabacher. Okay.
    Ambassador Wallace. One of the things that Ambassador Rice 
has done I think that has been very helpful is focusing on 
making our peacekeeping missions more effective and----
    Mr. Rohrabacher. Right. And, of course, when we talk about 
the United States and our commitment to peace overseas, never 
in the calculation is it put in how much we spend in countries 
like Afghanistan or Iraq or Kosovo, maybe Kosovo, maybe. I 
would suggest so now, of the 192 members of the General 
Assembly, about half of them are not legitimate governments. 
What about the Security Council?
    Is it true that the world's worst human rights abuser has a 
veto power over anything the U.N. can do through the Security 
Council? I am referring to China, of course.
    Well, yes, it is, isn't it? So what do we put in our faith 
and our money in? An organization that has such a dominant role 
being played by countries, by governments, by gangsters, by 
groups of people who have fundamentally a different approach to 
human rights and the human condition than we have in the United 
States of America. It is bound to fail. And it has been failing 
and has been a tremendous waste of our resources.
    I am not talking about retreating from the world. I am not 
talking about isolationism. I am talking about making sure that 
we do things in a way that is more likely to achieve our global 
objective, which is a more peaceful, a freer and more 
prosperous world.
    The United States, we are now spending $1.5 trillion more a 
year than we are taking in. We have got to find a way of not 
wasting that money. What we have heard today is a huge waste of 
that money. And there are ways we can spend less money and have 
a more positive impact on the world working with the democratic 
missions of the world, rather than putting ourselves at mercy 
of an organization dominated by crooks and gangsters and 
dictators.
    Thank you.
    Chairman Ros-Lehtinen. Thank you, Mr. Rohrabacher.
    Mr. Connolly of Virginia?
    Mr. Connolly. Thank you, Madam Chairman. And welcome to the 
panel.
    I would note, Ambassador Miller, that you in response to 
Mr. Ackerman said that, well, nobody is talking about 
withdrawing from the United Nations or gutting the institution. 
We are talking about improving it. I thought I just heard my 
colleague actually say precisely that.
    Mr. Rohrabacher. Absolutely.
    Mr. Connolly. Ex post facto, I yielded to my colleague for 
confirmation. So your rhetoric sometimes has perhaps unintended 
consequences.
    Let me ask you, Ambassador Wallace or Ambassador Miller, 
did the Bush administration favor the withholding of U.N. dues? 
What was the official position of the previous administration 
on that issue?
    Ambassador Wallace. They did not favor it.
    Mr. Connolly. They did not favor it. And at the time 
Ambassador Bolton, our Ambassador to the United Nations, did he 
comment on that issue of withholding dues to the United 
Nations?
    Ambassador Wallace. You know, I don't remember precisely 
how John phrased it, but I am sure you did the research. I 
don't have it here. I have been out of the government a couple 
of years. I don't remember precisely.
    But I think your point is----
    Mr. Connolly. Ambassador Wallace, officially was it not 
true that our U.N. Ambassador, Mr. Bolton, in fact, went on 
record as saying he did not favor the withholding of U.S. dues 
to the United Nations?
    Ambassador Wallace. I believe that Ambassador Bolton----
    Mr. Connolly. The----
    Ambassador Wallace. I should be able to finish if you want 
to ask me a question, respectfully. But I believe that he did 
say that if I remember correctly.
    Mr. Connolly. I am sorry. I thought you said you didn't 
know the answer.
    Ambassador Wallace. Well, you are refreshing me. I am not 
trying to be contentious in any way. I know that when you are 
an ambassador, you reflect your instructions of your 
department.
    Mr. Connolly. Well, Mr. Wallace, I am not asking you----
    Ambassador Wallace. I believe that he personally believed--
--
    Mr. Connolly. Mr. Wallace, I am sorry. This is my time. I 
am not asking you to be an apologist for Mr. Bolton's actions. 
I asked you a simple question. Did he or did he not favor the 
withholding of U.S. dues?
    You said you didn't know the answer. I refreshed your 
memory. The answer is he did not. He went on record as saying 
it would be wrong and it would be harmful to U.S. interests for 
an institution, for an institution, that apparently does so 
many awful things and is no ineffectual and works so often 
against U.S. interests. That is a striking thing for somebody 
who was appointed to that job, not confirmed by the Senate at 
the time, who was perhaps one of its chief critics.
    I note that for the record.
    Ambassador Wallace. I don't think anybody in this room 
believes that John Bolton doesn't support withholding. He does 
support withholding. I am sure at the time that he was 
Ambassador, he was following instructions. But Ambassador 
Bolton, no one in this room believes that he doesn't support 
withholding. And that is his opinion. He should come testify to 
that.
    Mr. Connolly. Well, we would be glad to have him come and 
testify, but, again, the purpose of the question was to get on 
the record what was the official position of the Bush 
administration and its spokesperson, both here and at the 
United Nations.
    Mr. Piccone, the United Nations--I am listening to all of 
this--has been an abject failure when it comes to U.N. foreign 
policy interests, has it not, in terms of peacekeeping 
operations, in terms of support for various and sundry 
resolutions that the United States would care about? It has 
pretty much been for its existence nothing but a thorn in the 
side of United States foreign policy.
    Would that be a fair statement?
    Mr. Piccone. No, it has not been an abject failure. And I 
tried to point out ways in which it has helped us share the 
burden of things that we would need to do anyway to protect our 
core interests in international peace and security.
    Mr. Connolly. Any striking examples of where there has been 
a coincidence of U.S. foreign policy interest and United 
Nations action?
    Mr. Piccone. Well, I have mentioned Iraq and Afghanistan, 
where the U.N. has come behind U.S. military operations to help 
lay the groundwork for sustainable peace and democracy in those 
countries. I have mentioned Haiti, where the U.N. came in. And, 
of course, as you know, over 100 U.N. officials and civil 
servants were killed in that earthquake, which shows that they 
were putting their lives on the line in cases where we need 
them to help in situations that are really important to our 
core interest. Those are just two examples. There are many, 
many more.
    Mr. Connolly. Ambassador Wallace, if I could sneak in one 
last question? The United Nations Security Council passed 
resolution 1929, subjecting Iran to what had been called some 
of the perhaps strictest sanctions ever imposed by the United 
Nations.
    Those sanctions and that resolution were, in fact, praised 
by Secretary Gates, our Defense Secretary, as being a good 
example of multilateral cooperation against Iran. Do you share 
that view?
    Ambassador Wallace. Let me repeat my testimony earlier. I 
am not sure if you were here at the time when I said that 
peacekeeping and sanctions are two important things that the 
U.N. does. It doesn't mean that we shouldn't strive to make the 
U.N. a better place and more reflective of our U.S. national 
security interests. Do you need me to say it again? I will. 
Peacekeeping----
    Mr. Connolly. No.
    Ambassador Wallace [continuing]. Is important and sanctions 
are----
    Mr. Connolly. Ambassador Wallace, again, that is not my 
question. My question was, do you share Secretary Gates' 
opinion that that resolution and those sanctions represent, in 
fact, a multilateral success of the United Nations?
    Ambassador Wallace. Every sanctions resolution against 
Iran, North Korea, Burma I think is a good thing. So yes.
    Chairman Ros-Lehtinen. Thank you.
    Mr. Connolly. Thank you.
    Chairman Ros-Lehtinen. Thank you so much.
    Mr. Kelly, Subcommittee on Asia and the Pacific vice chair?
    Mr. Kelly. Thank you, Madam Chairman.
    Since there is some confusion as to what Ambassador Bolton 
actually says,--I am going to quote from his book, ``Surrender 
is Not an Option,'' I go to page 443--

        ``Accordingly, I conclude that only one U.N. reform is 
        worth the effort. And without it, nothing else will 
        succeed. Voluntary contributions must be replaced, 
        assessed contributions. If America insisted it would 
        pay only for what works and that we get what we paid 
        for, we would revolutionize life throughout the U.N. 
        system. There is simply no doubt that eliminating the 
        entitlement mentality caused by relying on assessed 
        contributions would profoundly affect U.N. officials 
        around the world.''

So, rather than us trying to figure out what the Ambassador may 
have said or needing to refresh other people's memory, let's 
just go to his book and use that.
    Mr. Wallace, Ambassador Wallace, let me just ask you 
because I come from the private life, where competition means 
everything. And I know that a lot of what we do in the U.N., we 
look at it as does it have any worth or does it not have any 
worth?
    On page 6 of your written testimony, you talk about 
fostering competition. And you say that some U.N. agencies 
perform at a much higher standard from their counterparts and 
especially the World Food Programme. This is a voluntary 
program that is funded voluntarily. And it seems to have better 
efficiency, accountability, transparency. Everything works 
better than when it is up to competition.
    So recognizing that the largest contributor to the World 
Food Programme is the United States at $1.57 billion, or 40 
percent, of its $3.82 billion budget, let me just ask you this. 
This fostering competition sounds like a good way to fix some 
of these things that we think and lessons that we have learned 
from the past history. How can we overcome some of the 
challenges to the competitive model? What could we do to bring 
this about in other facets of what we do with the U.N.?
    Ambassador Wallace. I do believe and agree with the premise 
that that those U.N. funds, programs, and specialized agencies 
that are voluntarily funded have to compete for dollars in that 
competition makes them more accountable to member states. I 
think that is crystal clear. I think the World Food Programme 
is a classic example.
    I think that you should seek a voluntarily funding model 
certainly much more across the board than the funds programs 
and specialized agencies. It doesn't mean that we should pull 
out or otherwise, but we should ask these funds programs and 
specialized agencies to conduct themselves in a manner that is 
twenty-first century, Republican, Democrat, NGO, not-for-
profit, country, corporation.
    And some of the things that you all have outlined in the 
legislation in terms of suggesting reforms, those apply in my 
opinion to both voluntarily funded programs and those that are 
mandatorily funded.
    I think those reforms are good. I think, generally 
speaking, those that are voluntarily funded are more 
transparent and more accountable because they are competing and 
they have to satisfy you that they are doing a good job. They 
have to show where the money is going in a detailed manner. And 
that is more accountability. And that is what voluntarily 
funding does.
    I think, coupled with the Transparency and Accountability 
Initiative that you all have outlined that we supported, I 
think voluntary funding, funds programs, and specialized 
agencies are the way to go.
    Mr. Kelly. Okay. Thank you. Let me ask you that. What U.N. 
committees and agencies would you think were the prime 
candidates? What could we look at, any of the three of you, 
please?
    Ambassador Miller. Every U.N. specialized agency is a 
candidate to have the majority of their budget put on a 
voluntary basis. I think it would be appropriate in many cases 
to have a very small component of the budgets of these agencies 
put on a permanent and assessed basis as a condition of 
membership.
    But when the agencies are actually undertaking activities 
in the world, when they are undertaking assistance activities, 
aid activities, when they are undertaking any kind of 
activities that involve going out and helping citizens around 
the world, any kind of engagement around the world and the same 
way peacekeeping activities tend to be funded in a different 
way, well, we ought to think about funding these activities of 
these specialized agencies that way as well by voluntary 
funding.
    Then, as Ambassador Wallace says, they have to compete. 
They have to be accountable for results. The problem with have 
with aid expenditures around the world is that we measure 
inputs. We measure how much we spend. There is no ability, 
really, at all, in an effective way to measure the results of 
those expenditures. You get that through the competitive 
process.
    Mr. Kelly. Yes. And I ask you, then. So some of the metrics 
that you use, I mean, how do we gauge the return on our 
investment? How do we gauge the success or how would we improve 
it? What kind of metrics could we use?
    Ambassador Miller. It has got to be the results that you 
achieve in real terms in the world. One of the most serious 
problems with the U.N. is that we tend to judge its results by 
the promises that it makes in terms of addressing problems. We 
need to go out and actually measure, is development taking 
place? Is health improving? Is education taking place?
    Chairman Ros-Lehtinen. Thank you.
    Ambassador Miller. Is peace happening anywhere in the 
world?
    Chairman Ros-Lehtinen. Thank you.
    Ms. Schwartz from Pennsylvania?
    Ms. Schwartz. Thank you, Madam Chairman. I appreciate the 
opportunity to inquire.
    Actually, while it seems that there is a disagreement, 
there actually is I think remarkable agreement that we ought to 
stay engaged with the U.N. I think Ambassador Miller sort of 
answered it slightly differently but did come to the conclusion 
the last time around that we ought to stay engaged.
    And I think that I wanted to appreciate the Ambassador 
Wallace's mention that when you focus on the problems and the 
concerns and the reforms that have been made, which was part of 
your mission, they are only talking about the problems and the 
concerns. And there are forms that have to be done and some of 
the things we neglected to talk about and some of the things 
that were just mentioned that are keenly important that the 
U.N. does that really help us in our mission to be safer or 
more secure in a world community.
    So I think maybe that is something we ought to focus on, 
what do we get for the dollars and what does the U.N. do that 
we actually find extremely valuable to our own U.S. interests 
and to recognize the U.N. is not the only way we engage in the 
world community. I believe it is an important one, but it is 
not the only one. It doesn't preclude us from many other both 
unilateral and multilateral discussions of interest to the 
United States.
    So the U.N. is one tool. And I think all of you pointed out 
quite keenly that the issues of peacekeeping and political 
missions that we engage in in the sanctions are extremely 
important to have our allies around the world agree with us and 
be able to move forward in a more multilateral way than not.
    And recently, of course, the U.N. Security Council taking a 
very swift action on Libya was really--we talked about Iran 
already and Libya as well--something that I think many of us 
were very proud to see happen. And I have to say certainly our 
engagement in the U.N., well, it might not have happened at all 
without us being engaged.
    You are all nodding. So I will put that on the record. They 
are all nodding yes, which is a good thing.
    And I do want to recognize that because I think a unanimous 
adopted resolution that condemns and demands an end to violence 
in Libya is really important in posing those tough sanctions. 
Iran and Libya are very important to us.
    I mean, given what is going on, we talk about many places 
around the world but the real threats around the world, the 
real uncertainties. And, of course, the current violence in 
Libya is of deep concern to all of us. It is a very volatile 
part of the world unexpectedly in some ways. I think many would 
recognize that the last couple of months have really changed 
the dynamic so much: Tunisia, Egypt, Libya. You could say maybe 
Jordan, maybe elsewhere.
    So I wanted to really ask the question about the role in 
both again on peacekeeping but, really, also more on the 
political mission going forward and the role that we will play 
but could also play, the U.N. could play, in helping to make 
sure that those countries, particularly Egypt, for example, 
move ahead with democratic reforms and democratic institution 
building. It has been a concern of many of ours.
    So I do want to reserve a minute for the ranking member. So 
just really quickly, Mr. Piccone, if you would start there, 
that would be very helpful because I think helping them get it 
right but not having interfered too broadly is extremely 
important to safety and security in the region and for us.
    Mr. Piccone. I would point out that in the case of what is 
going on in North Africa, you already have U.N. agencies on the 
ground that are feeding and sheltering refugees crossing the 
border from Libya into Tunisia and Egypt.
    I would also note that, you know, when political change 
happens, you start to see results. So Tunisia, which has always 
been a very difficult member of the Council, is now inviting 
the Council experts to come. And they want a field office to 
advise them on how they can move forward on building democratic 
institutions.
    This is just one example of the role that the U.N. can play 
in parts of the world where, frankly, when we come in and do it 
on our own, it is not as easily swallowed by some of these 
states. But when the U.N. comes in under a blue U.N. flag, 
people say, ``Oh, I can accept this.'' This is how we can have 
influence.
    Ms. Schwartz. Okay. I appreciate that statement.
    And I did want to yield the rest of my remaining time to 
the ranking member. Mr. Berman wanted to----
    Mr. Berman. I thank the gentlelady very much for yielding. 
And it is right in line with what she was saying.
    Ambassador Wallace, I very much appreciate your discussion 
of this in the context of nuance. I am actually, I have to 
admit, surprised by not because of you but just, you know, all 
the polarization.
    The reason I think it is better not to withhold, to achieve 
the transparency in budgeting, the transparency in procurement, 
the member state access to audits, which are absolutely right, 
every one of them, is our closest allies if we start 
withholding, we need them to achieve these things.
    I am convinced from my conversations that if we play that 
withholding game, we will lose them in this effort. And that is 
why I think withholding is a mistake.
    Thank you.
    Chairman Ros-Lehtinen. Thank you, Mr. Berman. Thank you, 
Ms. Schwartz.
    Mr. Manzullo, the chairman of the Subcommittee on Asia and 
the Pacific, is recognized.
    Mr. Manzullo. Thank you, Madam Chair.
    I have a question I would like to ask. Do you believe that 
international treaties that are based upon U.N. organizations 
should trump domestic laws in different countries?
    Mr. Piccone. No. We have a process under our law where our 
Senate ratifies treaties. And, therefore, it does become part 
of our law. And, therefore, there is some commitment we have 
made to abide by----
    Mr. Manzullo. So, then, you----
    Mr. Piccone. So we have a treaty requirement and, for 
example----
    Mr. Manzullo. So, then, you would allow the United States 
Senate, without any input from the House of Representatives, to 
adopt the treaty or the convention of rights of the child to 
trump U.S. law?
    Mr. Piccone. I am not familiar enough with the details of 
that particular convention, but that is the role that our 
Constitution gives to ratify.
    Mr. Manzullo. I understand that, but what is going on is 
the UNICEF has come up with this treaty on convention of the 
rights to the child that says if a nation adopts it, it is for 
the purpose of recognizing the best interest of the child, and 
I quote, ``in the child's evolving capacities'' as the umbrella 
principle under riding the exercise of all rights in the 
convention. It would actually go on to overturn recent Supreme 
Court decisions on who has the ultimate decision to make in 
raising the family. That is the Troxel case.
    Ambassador Miller?
    Ambassador Miller. Thank you, Mr. Manzullo. I am very 
familiar with that convention and was actively involved in some 
of the negotiating processes for it and believe very strongly 
that the United States should not ratify it, but because many 
portions of it are in fundamental conflict not only with our 
basic values and principles but with our principles of the 
Federal system because many of the things that are covered by 
that convention are actually handled at the state and local 
level and U.S. law and practice.
    I think were the Senate to ratify that convention, were the 
Obama administration to decide they wanted to join, the Senate 
ratified, I think it would be the subject of court cases and 
judicial action for years in the United States.
    Mr. Manzullo. But would you agree then, that now, here is 
an international organization to which the United States has 
the biggest share of dues? Taking that dues money and coming up 
with an international treaty that, if adopted by the Senate, 
would trump all law in this country with regard to the raising 
of children?
    I mean, is that a correct use of U.S. taxpayers' money to 
have an international organization determine how children 
should be raised?
    Ambassador Miller. I think it is a complete distortion of 
anything that we would ever want to achieve. And it is really 
important to understand that when we try to partner with these 
other countries around the world, you have to look at who your 
partners are in that case. And these are countries, many of 
which do not share our values. So I think we need to exercise 
the utmost caution when we are talking about----
    Mr. Manzullo. Okay. Mr. Piccone?
    Ambassador Miller [continuing]. Social issues or----
    Mr. Manzullo. Do you believe that is okay to have----
    Mr. Piccone. I think the U.N. isn't forcing us to do 
anything and can't force us to do anything,----
    Mr. Manzullo. They are involved in this.
    Mr. Piccone [continuing]. Signing a treaty in this case. If 
there is objection to signing the treaty, we don't sign it or 
if maybe in another treaty where we express reservations and we 
make it clear certain----
    Mr. Manzullo. But, I mean, this is----
    Mr. Piccone [continuing]. Provisions we do not----
    Mr. Manzullo. The U.N. is doing this in terms of a treaty. 
This bypasses not only traditional state law, but any Federal 
law that may have to do with raising a child in favor of 
something called the ``evolving capacities'' of a child.
    It just bothers me that taxpayers' money should be used to 
give to organizations where people sit around and spend that 
type of money to come up with things like this, this convention 
on the rights of a child.
    Mr. Piccone. I would just say that if you look at the array 
of human rights treaties that have been negotiated and 
ultimately ratified by this country and many other countries, 
that we have succeeded in putting forward American values as 
universal values. There are exceptions.
    Mr. Manzullo. So you can defend the expenditure of U.N. 
money on a study like this, in a treaty presented before the 
United States?
    Chairman Ros-Lehtinen. Thank you, Mr. Manzullo. We will 
continue that----
    Mr. Manzullo. Can he give an answer? Can he say ``Yes'' or 
``No,'' which?
    Mr. Piccone. I took it as a rhetorical question.
    Mr. Manzullo. I don't ask rhetorical questions.
    Mr. Piccone. I would say, you know, minimal, minimal 
resources. This is a universal organization.
    Chairman Ros-Lehtinen. Thank you. We will continue that 
conversation.
    Mr. Manzullo. Thank you.
    Chairman Ros-Lehtinen. Mr. Payne of New Jersey, the ranking 
member on the Subcommittee on Africa, Global Health, and Human 
Rights?
    Mr. Payne. Thank you very much.
    How many countries have not ratified the treaty--I am not 
familiar with it--the treaty, the one that Mr. Manzullo is 
talking about? Do you know?
    Chairman Ros-Lehtinen. Mr. Manzullo, hold on. If we could 
start the time again because he is referring to the countries 
of the treaty?
    Mr. Payne. Yes.
    Chairman Ros-Lehtinen. We will start the time again. Mr. 
Payne is recognized.
    Mr. Payne. Great. Thank you. Thank you very much.
    I certainly support the United States rejoining or joining 
the Human Rights Council. Mr. Piccone, could you tell me the 
differences of the changes made by the Human Rights Council 
from its inception, how you were voted on? It was done by 
blocks of countries or so forth? And what changes were made in 
the new one?
    Mr. Piccone. Under the old Commission, it was a clean slate 
for each region. And then you had an open-ended appointment, in 
effect. Now states have to run in competitive elections. And 
the competitive elections have led to defeat of some bad 
states. So that process works.
    You are also term-limited. So states cannot serve for more 
than two consecutive terms. So Cuba, China, they will rotate 
off the Council. They shouldn't have been elected in the first 
place. I totally agree they should not have been elected in the 
first place, but they will rotate off. And it is critical that 
good states then run. And that is what the U.S. has been trying 
to do.
    I think the universal periodic review is a new mechanism 
that for the first time allows every state to be reviewed. We 
used to have huge fights in Geneva over just getting China to 
be reviewed. And there would be no action motions. And we often 
lost. I think we won once on that.
    And now China is being reviewed, publicly webcast. And this 
allows Chinese civil society to actually create a record and 
submit their own criticisms of the Chinese Government in the 
U.N. forum. That is unprecedented. That is also another example 
of something that is new.
    Mr. Payne. And also the U.S. ran and did pretty well, 
right, in this new round since we entered?
    Mr. Piccone. Yes, I think the U.S. leadership, as I 
mentioned in my testimony, has made a big difference in 
focusing more on country scrutiny away from Israel with cases 
like Cote d'Ivoire, cases that I didn't mention, like 
Democratic Republic of Congo. After the crisis of the rapes in 
that country, a session was called for that case, et cetera.
    Mr. Payne. Right. Yes. I think that it made no sense for us 
not to participate at the beginning. You know, here you have 
the most powerful nation in the world and we say we are not 
going to sit down there because they are going to say bad 
things about us, rather than being in the room and saying, 
``Wait a minute. You don't talk about me like that. Let me tell 
you about yourself.'' In other words, to me it made absolutely 
no sense.
    And I am glad that this administration had the courage to 
say, ``Let's participate in it. Let's go there and let's argue 
our position. Let's take Amman when they are off the board on 
Israel or any other area that they are making mistakes on.'' 
And so I am glad to see us participate.
    I think there still has to be a lot of reform. But I do 
believe that we are on the right track.
    The question of the U.S. dues being withheld, I think that 
really also doesn't make too much sense. As you know, when the 
U.N. started, we procured about 50 percent because the world 
was in shambles. When it came to actual dues, we were down to 
33 percent was what it was fixed on. As you know, from the 33 
percent that we have been paying for U.N. dues, the general 
assessment, we have reduced ourselves by one-third. As you may 
know, we are down to 22 percent, just a little bit above, say, 
Japan, for example.
    So the fact that I think we are getting increasingly much 
more bang for the buck because we, too, have said that we will 
not ever let a U.S. troop be boots on the ground peacekeeping. 
So the rest of the world, you bring the troops. And we will pay 
our assessment, but we are not going to get in harm's way.
    So I think that in Haiti and in other places, where we 
would possibly have had troops, the U.N. is covering that for 
us. So I think that there are tremendous amounts of positive 
things that are happening as a result of the U.N. being around. 
And I think that it is going to play a key role in the Middle 
East, where we can set up, as you mentioned, we can set up U.N. 
offices to do democracy building, rather than the U.S. going 
in, because that would just be what other countries would use 
against us.
    So, as you can see, I am a pretty strong supporter of the 
U.N., feeling that it has a lot of flaws, but I think it has 
improved and we still have to keep the pressure on them to make 
them improve more.
    Chairman Ros-Lehtinen. Thank you very much, Mr. Payne.
    And I would like to recognize our ranking member, Mr. 
Berman, for a unanimous request.
    Mr. Berman. Thank you very much, Madam Chairman.
    And I would like unanimous consent to present a letter into 
the record of this hearing from the Foreign Minister of Israel 
to the Secretary of State regarding the U.S. efforts in UNESCO 
to prevent the adoption of five anti-Israel resolutions.
    It is relevant to the conversation that Ms. Buerkle had 
with Mr. Piccone earlier. And, for that, I would like to 
include this letter in the record, if I could.
    Chairman Ros-Lehtinen. Thank you. And I would just like to 
point out that we did return to UNESCO after being out for so 
many years. And they saw the light. It is so wonderful.
    Mr. Berman. Well, I don't know if they saw all of the 
light, but they are----
    Chairman Ros-Lehtinen. Well, they have seen some light.
    Mr. Berman. But they----
    Chairman Ros-Lehtinen. But they like withdrawing.
    Mr. Berman. They are a lot better than they were,----
    Chairman Ros-Lehtinen. Yes. Okay.
    Mr. Berman [continuing]. Anybody, than they were in 1988.
    Chairman Ros-Lehtinen. All right. Thank you.
    And for the last word, I will yield 5 minutes to Mr. 
Burton, the chairman of the Subcommittee on Europe and Eurasia.
    Mr. Burton. Thank you, Madam Chair.
    First of all, my good friend Mr. Berman, the ranking 
member, indicated that--and I think Mr. Payne did as well--we 
shouldn't be cutting the U.N.'s funds. Great Britain and the 
House of Commons--let's see; it was Mr. Mitchell--said that 
they were going to cut 50 million in pounds by cutting 
development funding to 4 United Nations organizations, United 
Nations Industrial Development Organization, U.N. Habitat, U.N. 
Agency for International Labor Organizations, and the U.N. 
International Strategy to Disaster Reduction.
    Mr. Berman. Would the gentleman yield?
    Mr. Burton. No. I am sorry. I will if I have time at the 
end because----
    Mr. Berman. Okay.
    Mr. Burton [continuing]. I love you, man. [Laughter.]
    Let me just tell you that I listen to this kind of 
discussion. And I have been here for 28 years. I know I look a 
lot younger, but I have been here for a long time. And I have 
to tell you I get so frustrated sometimes when I listen to this 
stuff. You know?
    We shouldn't be passing any treaty or anything that cedes 
our constitutional authority to anybody but especially the U.N. 
And I will do everything in my power as long as I am in this 
place to stop any of our rights that are given to us by our 
forefathers I the Constitution to any agency in the world, 
especially the United Nations.
    And the next thing I would like to say is my good friend 
Mr. Payne said, ``Well, we don't pay much more than the 
Japanese do.'' Well, the Japanese pay 16 percent of the budget. 
We pay 22 percent. And I would say that is a pretty big 
difference.
    But, nevertheless, we should I think hold the U.N. 
accountable. We spend over 25 percent of the budget for 
defensive actions around the world, for the United Nations 
military forces.
    When we talk about Haiti, the U.N. does do some things, but 
we spend a lot of money down in Haiti. We spent $6.3 billion so 
far. So we are doing more than our share if we didn't give the 
U.N. a thing.
    Now, what I would like to know, I am not a big fan of the 
U.N. I mean, you might have gathered that. I think that, you 
know, they end up opposing us on so many things. And since the 
Korean War, I can't think of very many areas where the U.N. has 
been supportive of what the United States wants. And so, you 
know, if somebody is constantly kicking you in the fact, I 
don't see any reason to give them a whole lot of money. But, 
nevertheless, I realize where we are.
    Now let me just ask a quick question of you folks. And you 
can give me the answers within the time frame. How many U.N. 
agencies and offices and officials publicly disclose their 
budgets and finances?
    And, second, are all U.N. agency audits and investigations 
available to donor states? U.N. entities are subject to the 
transparency that we expect from publicly held companies here 
in the United States. I can remember when they were spending 
tremendous amounts of money, double, triple what an accountant 
would make in New York. They are giving their kids college 
money. They are paying for their houses. They are paying for 
their cars. They are paying for everything with our tax 
dollars. And I would like to know if there is any transparency 
in those areas. And I will yield to any of you.
    Ambassador Wallace. In that order, not enough, no, and no.
    Mr. Burton. I love your succinctness.
    Ambassador Wallace. But I want to give one caveat. I think 
in this time when we have such tight budget dollars, we have to 
have the thoughtful discussion about the benefits of our ODA 
dollars and what it gets to, the end users or intended 
beneficiaries, or donations as we contribute to international 
organizations.
    Let me read you one quote, ``Approximately 75 percent of 
the budget resources are related to salaries and common staff 
costs,'' 75 percent. That wasn't me. That was my friends from 
the G-77 in China in the budget discussion in 2008 and 2009.
    One of the reforms that we should seek to have, which is 
the cutting edge of not-for-profit giving and international 
aid, is to have a cap on administrative overhead and costs. I 
think we should narrow that down so only 5 to 10 percent goes 
to overhead, administrative, and costs. That is a better deal.
    Let's have a thoughtful discussion about that. And let's 
move these funds programs, specialized agencies to lower their 
overhead from upwards of 50 to 75 percent down to a more 
appropriate 5 percent.
    Right now our ODA when we give it directly to the field is, 
arguably, a much better deal. Why should we be paying overhead? 
We should be paying directly to the field. Our dollars should 
go to help people around the world, not to pay overhead.
    Mr. Burton. Go ahead, Mr. Miller.
    Mr. Piccone. Well, I----
    Mr. Burton. I can't read. I don't have my glasses on.
    Ambassador?
    Ambassador Miller. One of the most frustrating things that 
happened when Ambassador Wallace and I were in New York was we 
would go into a meeting of UNDP, for example, and ask for a 
financial document or information about how much was spent on a 
given area. How much was spent in North Korea, for example?
    And that information was never forthcoming. There was a 
systematic effort to prevent us from obtaining the information 
that we needed in order to exercise proper oversight.
    Chairman Ros-Lehtinen. Thank you so much.
    This was a wonderful set of panelists, good witnesses, good 
interaction from our members. And the committee is now 
adjourned.
    [Whereupon, at 12:11 p.m., the committee was adjourned.]
                                     

                                     

                            A P P E N D I X

                              ----------                              


     Material Submitted for the Hearing Record<greek-l>Notice deg.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               <greek-l>Minutes deg.

                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                               <greek-l>Berman FTR deg.__

Material submitted for the record by the Honorable Howard L. Berman, a 
        Representative in Congress from the State of California

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<greek-l>QFRs--Wallace deg.Written responses from the Honorable Mark D. 
 Wallace to questions submitted for the record by the Honorable Ileana 
                              Ros-Lehtinen

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                                 <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
